<html>
<title> - ALASKA NATIVE SUBSISTENCE AND FISHING RIGHTS</title>
<body><pre>[Senate Hearing 107-456]
[From the U.S. Government Printing Office]



                                                        S. Hrg. 107-456
 
              ALASKA NATIVE SUBSISTENCE AND FISHING RIGHTS
=======================================================================

                                HEARING

                               BEFORE THE

                      COMMITTEE ON INDIAN AFFAIRS
                          UNITED STATES SENATE

                      ONE HUNDRED SEVENTH CONGRESS

                             SECOND SESSION

 TO RECEIVE TESTIMONY ON SUBSISTENCE HUNTING AND FISHING BY THE NATIVE 
                                ALASKANS

                               __________

                             APRIL 17, 2002
                             WASHINGTON, DC












                        U.S. GOVERNMENT PRINTING OFFICE
79-754                          WASHINGTON : 2002
_____________________________________________________________________________
For Sale by the Superintendent of Documents, U.S. Government Printing Office
Internet: bookstore.gpo.gov  Phone: toll free (866) 512-1800; (202) 512-1800  
Fax: (202) 512-2250 Mail: Stop SSOP, Washington, DC 20402-0001







                      COMMITTEE ON INDIAN AFFAIRS

                   DANIEL K. INOUYE, Hawaii, Chairman

            BEN NIGHTHORSE CAMPBELL, Colorado, Vice Chairman

FRANK MURKOWSKI, Alaska              KENT CONRAD, North Dakota
JOHN McCAIN, Arizona,                HARRY REID, Nevada
PETE V. DOMENICI, New Mexico         DANIEL K. AKAKA, Hawaii
CRAIG THOMAS, Wyoming                PAUL WELLSTONE, Minnesota
ORRIN G. HATCH, Utah                 BYRON L. DORGAN, North Dakota
JAMES M. INHOFE, Oklahoma            TIM JOHNSON, South Dakota
                                     MARIA CANTWELL, Washington

        Patricia M. Zell, Majority Staff Director/Chief Counsel

         Paul Moorehead, Minority Staff Director/Chief Counsel

                                  (ii)









                            C O N T E N T S

                              ----------                              
                                                                   Page
Statements:
    Anderson, Robert, assistant professor of law, director, 
      Native American Law Center, University of Washington School 
      of Law.....................................................  3, 7
    Akootchook, Isaac, elder, North Slope Region, Alaska.........     6
    Campbell, Hon. Ben Nighthorse, U.S. Senator from Colorado, 
      vice chairman, Committee on Indian Affairs.................    38
    Demientieff, Mitch, chairman, Federal Subsistence Board......    32
    Golia, Andy, vice president, Bristol Bay Native Association..    12
    Inouye, Hon. Daniel K., U.S. Senator from Hawaii, chairman, 
      Committee on Indian Affairs................................     1
    Jackson, Gordon, executive director, Southeast Alaska 
      Intertribal Fish and Wildlife Commission...................    19
    Johnson, Charles, executive director, Alaska Nanuuq 
      Commission.................................................    17
    Kennedy, Jeanine, executive director, Rural Alaska Community 
      Action Program, Inc........................................    23
    Kitka, Julie, president, Alaska Federation of Natives........    27
    Lake, Arthur, president, Association of Village Council 
      Presidents.................................................    14
    Murkowski, Hon. Frank H., U.S. Senator from Alaska...........     1
    Norbert, Eileen, executive vice president, Kawerak, Inc......23, 25
    Pete, Mary, director, Division of Subsistence, Alaska 
      Department of Fish and Game................................    28
    Williams, Mike, chairman, Alaska Inter-Tribal Council........    20
    Worl, Rosita, chair, Subsistence Committee, Alaska Federation 
      of Natives, president, Sealaska Heritage Foundation........     3
    Yaska, George, fisheries specialist, Tanana Chief Conference.    16

                                Appendix

Prepared statements:
    Anderson, Robert.............................................    45
    Bullard, Loretta, president, Kawerak Inc. (with attachments).   149
    Demientieff, Mitch...........................................   142
    Fleagle, Hon. Donne, president, Board of Directors, Rural 
      Alaska Community Action Program, Inc.......................   106
    Golia, Andy..................................................    74
    Huhndorf, Roy, cochairman, Alaska Federation of Natives (with 
      attachments)...............................................   170
    Iyatunguk, Robert, chairman, Karwerka Elders Advisory 
      Committee..................................................   178
    Johnson, Charles.............................................   102
    Kookesh, Albert, cochairman, Alaska Federation of Natives....   181
    Lake, Arthur (with attachments)..............................    83
    Miller, William, Dot Lake Village Council (with attachments).   156
    Minard, Kris.................................................   187
    Norbert, Eileen..............................................   189
    Pete, Mary (with attachments)................................   112
    Schwalenberg, Dewey, director, Stevens Village Tribal Natural 
      Resource/Environmental Program.............................   192
    Williams, Mike...............................................   104
    Worl, Rosita.................................................    41
    Yaska, George................................................    97
Additional material submitted for the record:
Letters from:
    Hahn, Richard................................................   197
    Metz, Michele................................................   199
    Mills, Mary Ann..............................................   200
    Temple, Lillian White, member, Elderly Organization, Rock 
      Creek......................................................   201
    Tiepelman, Dennis J., president, Maniilaq Association........   202
Articles:
    Congress to Hear Subsistence Issue, Tom Kizzia, Anchorage 
      Daily News.................................................   213
    Urban Alaskans Get Shot at Subsistence, Tom Kizzia, Anchorage 
      Daily News.................................................   215












              ALASKA NATIVE SUBSISTENCE AND FISHING RIGHTS

                              ----------                              


                       WEDNESDAY, APRIL 17, 2002


                                       U.S. SENATE,
                               Committee on Indian Affairs,
                                                    Washington, DC.
    The committee met pursuant to notice at 2:02 p.m. in room 
485, Senate Russell Building, Hon. Daniel K. Inouye (chairman 
of the committee) presiding.
    Present: Senators Inouye, Campbell, and Murkowski.

 STATEMENT OF HON. DANIEL K. INOUYE, U.S. SENATOR FROM HAWAII, 
             CHAIRMAN, COMMITTEE ON INDIAN AFFAIRS

    The Chairman. Before proceeding, I would like to advise one 
and all that there will be a roundtable discussion on 
subsistence hunting and fishing issues in Alaska immediately 
following this oversight hearing in this room.
    The committee meets this afternoon to receive testimony on 
subsistence hunting and fishing by the native people of Alaska. 
Long before the United States was formed, the native people of 
Alaska were providing for sustenance of their children and 
families. But basic sustenance was not the only objective of 
subsistence hunting and fishing by the native people. It also 
served as a fundamental aspect of native culture, native 
traditions, religious and spiritual beliefs, as well as a way 
of life that had been practiced for centuries.
    Today, we will learn how the subsistence hunting and 
fishing by Alaska Natives is faring in contemporary times as 
the United States and the State of Alaska seek to address the 
provisions of Federal law, the Alaska National Interest Lands 
Conservation Act, and title VIII of that act which addresses 
subsistence uses.
    So with that, I would like to recognize Senator Murkowski 
of Alaska.

 STATEMENT OF HON. FRANK H. MURKOWSKI, U.S. SENATOR FROM ALASKA

    Senator Murkowski. Thank you very much, Senator Inouye. I 
want to welcome the Alaskans that are here. You have come at a 
very auspicious time. As you probably know, we are debating the 
ANWR issue on the floor of the U.S. Senate right now. I just 
relieved Senator Stevens, so I am going to have to welcome you 
with a short message and then get back. For those of you who 
would like to observe the process, it is going to be extremely 
lengthy. We anticipate that it will be going well into the 
evening. If you would like to come into the family gallery, 
why, we would be happy to invite you to participate in the 
process.
    Some have said that legislation is like making sausage--it 
is not a pretty sight. I suppose that is appropriate. On the 
other hand, for those of you who have traveled so far, we can 
greet you with probably the warmest day of the year. So I would 
suggest, Mr. Chairman, that Alaska is in the frying pan in one 
way or another here, not only on this subsistence issue which 
has been around a long time, and which we hope we will be able 
to resolve through unity in Alaska, as well as the reality that 
ANWR has been around here for a long time.
    First, in welcoming my fellow Alaskans, I want to 
compliment the chairman, my good friend, who has been with us 
on Alaska issues historically, and made I thought an 
extraordinary speech about 3 days ago supporting Alaska's 
effort to open up its land area for the benefit of the people 
of Alaska and the United States as a whole. So I want to 
comment you, Senator Inouye, for your support.
    I look forward to the testimony that each of you is 
prepared to address, and hope this forum can move us forward 
toward a solution on the subsistence dilemma that we have been 
facing for a long time. I think we all share a common interest 
in bringing resolution of this problem. Decisions on how we 
manage subsistence in Alaska affect not only subsistence users, 
but commercial, sport, recreation, fishermen as well, and those 
who gather and other subsistence users. The only way we are 
going to find a solution is by working together. We need all 
the stakeholders together to find that lasting solution, and 
this committee I think will go a long way in assisting in the 
careful consideration of the views of each group that will 
potentially be affected by any subsistence policy.
    For this reason, I would ask that the record remain open 
until those organizations who have had a chance to submit their 
written testimony for the record have that opportunity.
    The Chairman. Thank you very much. I am pleased to advise 
my colleague from Alaska that the record will remain open for 
at least 2 weeks.
    Senator Murkowski. That is fine. I certainly appreciate 
that. We have had an indication of several groups that would 
like to have testimony submitted for the record.
    Finally, clearly we need a subsistence solution that does 
not discriminate or divide the people of Alaska on the basis of 
race or culture. We need a solution that is inclusive of all 
people and cultures in Alaska. I believe the intent of our 
Alaska State Constitution was basically to accomplish this 
inclusiveness. I believe the intent of ANILCA was to accomplish 
this as well. Unfortunately, the problem we often have is in 
the details. It has been said the devil or someone else lies in 
there, but there are discrepancies between the two and we need 
to identify those as much as possible today.
    I think our mission is to both amend the State 
Constitution, which I strongly support, and come up with some 
clear and specific definitions to the vague language in ANILCA, 
the source of many of the problems that are being addressed 
here today, and clearly the court has not helped us in those 
determinations because it is still very unclear. Amending title 
VIII of ANILCA is crucial if we are to reconcile Federal 
statute with existing State law.
    In any case, I want management of all Alaska's fish and 
wildlife resources put back in the hands of Alaska. I grew up 
in Alaska and remember the management regime of the Department 
of the Interior, where the management scheme was one size fits 
all. It did not work. We had our fishermen on self-imposed 
limits in Southeastern Alaska. I think it is mandatory that all 
Alaskans work together to get back the management of these 
renewable resources.
    Most importantly, I want to see clearly defined and 
enforceable rural preference for subsistence hunting and 
fishing, one that is legally sound and one that is fair to all 
Alaskans. As I mentioned earlier, I want to look forward to 
hearing the testimony you will receive today. I remain 
committed to finding a solution to the subsistence questions in 
Alaska, and I certainly thank the Chairman for the opportunity 
to welcome our Alaskans here this afternoon.
    I shall be looking forward to reviewing your testimony as 
soon as I am able, and I trust that you will excuse me, Mr. 
Chairman, as I return with Senator Stevens to the floor as we 
continue the process of trying to resolve one of Alaska's 
longstanding issues.
    Thank you, Mr. Chairman.
    The Chairman. May I call upon the first panel, consisting 
of Dr. Rosita Worl, chair of the Subsistence Committee of the 
Alaska Federation of Natives and president of the Sealaska 
Heritage Foundation of Juneau, AK, who will be accompanied by 
Professor Robert Anderson, director, Native American Law Center 
of the University of Washington School of Law in Seattle; and 
an elder from the North Slope region of Alaska, Isaac 
Akootchook.
    Dr. Worl, you are always welcome here.

STATEMENT OF ROSITA WORL, CHAIR, SUBSISTENCE COMMITTEE, ALASKA 
FEDERATION OF NATIVES; PRESIDENT, SEALASKA HERITAGE FOUNDATION, 
 ACCOMPANIED BY ROBERT ANDERSON, DIRECTOR, NATIVE AMERICAN LAW 
         CENTER, UNIVERSITY OF WASHINGTON SCHOOL OF LAW

    Ms. Worl. Thank you, Honorable Senator Inouye.
    Thank you very much for agreeing to hold this hearing on 
subsistence in Alaska. What I would like to do today is to talk 
about the significance of subsistence in the contemporary 
period. But first of all before I begin that, Senator, what I 
would like to do is to present you with this photo right here 
in front of the table. The photo is Pauline and Joe Agothlik of 
Imanuk. What I would like to do is to really bring the people 
of Alaska here and the essence of Alaska. Here, they are 
sharing in a fish that was received from the State. We really 
want to talk about the kinds of things that we are facing today 
in Alaska, the kinds of shortages and the difficulties some of 
our people are experiencing.
    For the record, I am Rosita Worl and I am the chair of the 
AFN Subsistence Committee. My testimony today will be drawing 
from my professional background and also my personal experience 
as a Tlingit Indian.
    It has often been said that subsistence cannot be defined, 
but Alaska Native people will define it as a way of life. What 
I would like to do today is to look at the components of 
subsistence--what really makes up subsistence. It may begin to 
sound like a lecture, and for that I apologize. But also in the 
need for brevity, it may seem as if I am oversimplifying this 
very complex system. However, it is my sense, as you have 
stated, that we must have a basic understanding of the dynamic 
socioeconomic subsistence system in order to analyze how 
legislation has the capacity to undermine or to protect 
subsistence.
    First of all, I want to assure you, as you have already 
stated, Alaska Native cultures are vibrant. They remain vibrant 
in this contemporary period. They also remain very dependent 
and culturally attached to the hunting and fishing way of life. 
Subsistence as it is practiced by Alaska Native people is 
comprised of three major interrelated components: economic, 
social and cultural. It operates as a cohesive, adaptive and 
functioning system. The cultural component includes the values 
and ideologies that govern and direct subsistence behavior and 
activities.
    For example, and this is the one I want to stress, it is 
the value of sharing. Sharing is key to subsistence and is key 
to the survival of native societies. Young hunters are taught 
to share from a very early age. Also, significant amounts of 
sharing takes place in our ceremonies. The elders also play a 
very important role in our subsistence economy, not only in 
terms of teaching the young, but also they receive a special 
share and portion of the subsistence take. In this way, it 
functions very much like our Social Security system.
    The cultural component also is comprised of our beliefs and 
ideologies. Here is where we differ from the larger society and 
the rest of Alaskan society in that Alaska Native people 
believe that they have a spiritual relationship to the animals 
and to the wildlife. This relationship requires native people 
to adhere to certain codes of conduct and to treat animals in 
prescriptive ways to ensure success in future hunts.
    The social aspect refers to the way in which native people 
organize themselves to participate in subsistence activities. 
The socioeconomic organization is based on some form of 
kinship. More often you will hear our people referring to it as 
the extended family as the hunting unit. The important 
dimension here is that subsistence operates as a group 
activity, rather than that of a sole hunter pursuing game.
    The third element includes the economic aspect, which 
consists of production, distribution and exchange, and 
utilization of natural resources. Production includes the 
procurement and preservation of subsistence food, while 
distribution and exchange refers to the movement of subsistence 
goods or the sharing of subsistence food through the social 
network.
    Subsistence economies also include the exchange of surplus 
resources for resources that may not be readily or locally 
available. Utilization includes the food consumption as well as 
the utilization of the by-parts for arts and crafts or for 
other sorts of equipment that the hunters and gathers may need, 
such as skins for the skin boats.
    Alaska rural communities are also characterized by a mixed 
or dual economy. What do we mean by that? In today's 
subsistence economy, cash is an absolute requirement. It is 
necessary to purchase rifles, ammo and other tools, supplies 
and equipment. Cash is acquired in multiple ways in this 
socioeconomic unit. The hunter or spouse may be a full-or part-
time wage earner or a family member may earn income through the 
sale of arts and craft or a subsistence service. An elderly 
member of the unit may also receive a transfer payment and they 
may then contribute portions of this cash to the subsistence 
enterprise.
    The importance of the subsistence economy in Alaska today 
cannot be overstated. It provides a major portion of the diet 
in rural Alaska and in native households. Subsistence can be 
seen as even more important with the absence or the limited 
wage income opportunities in rural Alaska and also its seasonal 
nature. The limitations on wage income opportunities are 
further exacerbated by the highest cost of living within the 
United States. Without a subsistence economy, hunger would be 
the norm in Alaska Native and rural communities. These 
assertions are all verifiable by hard statistical data.
    The persistence of the subsistence lifestyle, however, 
cannot be attributed solely to the absence or the constraints 
on the wage opportunities. The social, cultural and ideological 
aspects remain important to native people and they choose to 
adhere to their traditional way of being of their lifestyle. So 
these are also aspects that continue to make subsistence very 
important to native people today.
    I wanted to stress two basic differences between Alaska 
Natives and the other Alaskans or other people who use 
resources in Alaska. One I have already talked about--the 
special spiritual relationship that native people have to the 
wildlife. The second, and this is really very important in 
terms of understanding subsistence and understanding why ANILCA 
is so important to Alaska Native people. And that is the group 
orientation that native people have, as opposed to the 
individualistic values of the larger societies.
    Native cultural and religious values can sometimes be 
protected under the freedom of religion policies and laws. We 
saw that in Alaska in the Carlos Frank case, where a hunter, 
where the Athabascans needed a moose for a funerary ceremony, 
and they took a moose out of season. There was a case brought, 
but because of the freedom of religion they were not charged or 
were not found guilty in this case.
    Laws embody the values of their societies and American law 
generally reflects the individualistic nature of this society, 
rather than the group orientation of Native societies. American 
values, however, recognize the importance of cultural 
diversities, and theoretically our laws and policies embrace 
this ideology of cultural diversity. But this does not mean 
that the laws themselves will reflect the group orientation 
values held by Alaska Natives and American Indians.
    However, the Federal Government does accord Alaska Natives 
and American Indians a special political status which offers 
the opportunity to acknowledge and protect the different 
cultural values and Alaska Native societies. Alaska Natives and 
their cultural values and subsistence were made possible in 
part through the Alaskan National Interest Land Conversation 
Act of 1980. ANILCA has offered the only measure of protection 
for subsistence against the State of Alaska, which has refused 
to recognize a rural subsistence hunting and fishing priority. 
Title VIII of ANILCA requires that subsistence uses be given 
priority over the taking of fish and wildlife for other 
purposes. It defines subsistence uses as the customary and 
traditional uses by rural Alaska residents.
    ANILCA provides a priority for rural residents of 
communities that have customary and traditional uses of a 
particular resource. As an anthropologist, I know the 
significance of ANILCA is that it provides protections for 
communities or for groups, rather than the individually based 
uses and protections based on customary and traditional uses.
    The prevalent argument advanced by a small, but vocal and 
successful minority of Alaskans, is to oppose a constitutional 
amendment because it violates the equal access to fish and 
wildlife. However, in my testimony I have tried to stress the 
importance of understanding not only the subsistence lifestyle 
and culture, but also it is important to assess the underlying 
meaning of the equal access argument as it is advanced by the 
subsistence opponents, and to understand the potential 
ramifications should they be successful in amending ANILCA to 
embrace this ideology and to extinguish the group orientation 
and the group protections as offered under ANILCA.
    ANILCA as it is written protects the group realities--the 
nature of Alaska Native subsistence activities. I will pray 
that Congress will not condone the further erosion of 
subsistence and cultural protections for its indigenous people. 
I would hope that Congress will see that ANILCA is a means to 
ensure the cultural survival of Alaska Natives and to maintain 
the rich cultural diversity of this country.
    I would hope that Congress will continue to support and 
urge the State of Alaska to advance a constitutional amendment 
that brings it into compliance with ANILCA. It would be my 
hope, Senator, that Congress will continue to support ANILCA as 
it is written unless in its wisdom it should choose to adopt a 
Native subsistence priority.
    Thank you, Senator.
    [Prepared statement of Ms. Worl appears in appendix.]
    The Chairman. I thank you, Dr. Worl.
    May I now recognize Mr. Akootchook.

  STATEMENT OF ISAAC AKOOTCHOOK, ELDER, NORTH SLOPE REGION OF 
                             ALASKA

    Mr. Akootchook. My name is Isaac Akootchook. I was born in 
Takdorik and I have been there 80 years. So I have a birthday 
on March 31, just only 17 days ago.
    I am surprised to be here to sit over here in front of you, 
Senator, the first time I have a trip to Washington, DC.
    Thank you very much for letting me through the Osloburro 
hunting. We have a whaling inberro starting in this month, and 
Tannooslo, my representative from all the way from St. Lawrence 
Island, Tivalina, Quint Hope, Enright, and Barrow. In that way, 
he sent me down here to speak in front of you people.
    Our life is since I have a recollection since we have born, 
to take other animals, how we are used for living. We are 
learning, and again is to go with these people, have a law, 
recollections in our life. And I am not really a good speaker 
in English because I am Inuit and never went to school either. 
But I have just this morning to try to help my North Slope 
people. Native people all over have used this land all its 
life. That is what I speak about. And again, many times we see 
the law recollection to make it to the animal. I always say 
about those collars that they put animals--too many, too many 
collars. And they say, I try to study animal; how far from the 
direction to all the way to somewhere to study. This is really 
kind of animal suffering, because polar bears, caribou, and all 
that things. That is what we use for food for our native 
people, and nobody much say about it, but we have seen it quite 
a few times. And those animals, sometimes they have suffering.
    We have many things, and he goes through that. I heard 
sisters speaking here, and I really agree with your speaking 
because this is a native culture and all that thinking.
    Thank you very much. I am end speaking.
    The Chairman. I thank you very much.
    Mr. Anderson, would you care to add something?

   STATEMENT OF ROBERT ANDERSON, ASSISTANT PROFESSOR OF LAW, 
DIRECTOR, NATIVE AMERICAN LAW CENTER, UNIVERSITY OF WASHINGTON 
                         SCHOOL OF LAW

    Mr. Anderson. Thank you, Mr. Chairman.
    I was asked to address two areas: First, the background 
material leading to the subsistence law as we see it today 
reflected in title VIII; and second, the authority of Congress 
as a matter of constitutional law to provide for a native 
priority or a rural priority in combination with the native 
priority on all lands in Alaska, the thinking being that given 
the State legislature in particular's failure to get back in 
compliance with ANILCA over the last 12 years, that this is an 
option that should be considered. I have been asked to write a 
paper on this, which I have done and it is submitted as part of 
the record, and also to make myself available to your staff and 
anyone else who would like to discuss these issues further.
    Just a thumbnail sketch of the Federal Government's 
treatment of hunting and fishing rights in Alaska can begin 
with the Treaty of Cession which essentially left the law in 
place with respect to aboriginal or native hunting and fishing 
rights as they were exercised in Alaska by native people since 
before the Russian arrival and long before the Treaty of 
Cession.
    A series of statutes passed by Congress beginning in 1870 
and through the early 1930's provided native exemptions from 
regulations governing the taking of fish and game. Those 
exemptions were uniform and were included in every statute and 
treaty dealing with native hunting and fishing rights. In 1942, 
the Solicitor at the Interior Department had occasion to 
discuss the hunting and fishing rights of Alaska Natives, and 
in a lengthy opinion that I wholeheartedly agree with, 
concluded that natives had unextinguished aboriginal rights 
that continued to be available for their use and protection and 
that the Federal Government had an obligation to protect.
    There was a short period when a smattering of reservations 
were created in Alaska pursuant to the Indian Reorganization 
Act and under the President's executive order authority. Those 
reservations typically were set aside for the protection of 
native hunting and fishing rights, as well as for a land base. 
As you know, all those reservations except one were 
extinguished when ANCSA was passed.
    The Statehood Act in 1959 provided that the State of Alaska 
should disclaim all right and title to native lands and to 
fishing rights. Fishing rights were mentioned in particular 
because of their extreme importance to Alaska Native people. It 
is commonly stated that Alaska achieved management of fish and 
game at the moment of statehood. That is not correct. The 
Statehood Act withheld State jurisdiction over fish and game 
pending a certification by the Secretary of the Interior that 
the State had an adequate regulatory regime in place. That 
certification came out of the Secretary of the Interior in 
1960.
    As the State of Alaska exercised its authority under the 
Statehood Act to select up to 100 million acres, and as the 
route for the Trans-Alaska Pipeline was put into existence and 
selections were made, native protests that were made to the 
Secretary of the Interior caused Secretary Stuart Udall to 
impose a land freeze on all conveyances of land out of the 
Federal public domain in recognition of native aboriginal 
hunting and fishing rights and aboriginal title.
    That land freeze and resulting political pressures brought 
about the adoption of the Native Claims Settlement Act in 1971. 
That Settlement Act did not provide for any protection for 
native hunting and fishing rights. It extinguished their 
existence and noted in the Conference Committee report that the 
conferees, the Senate and the House, expected the State of 
Alaska and the Secretary of the Interior to use their existing 
authority to protect and provide for native hunting and fishing 
rights in Alaska.
    One year after ANCSA was adopted, Congress preempted all 
State law in the Marine Mammal Protection Act and imposed a 
moratorium on the harvest of marine mammals. That statute, 
however, contained an exemption for Alaska Natives who dwell on 
the coast. The next year after that, 1973, the Endangered 
Species Act placed limits on the harvest of endangered species. 
Once again, a native exemption was included in the statute.
    By the late 1970's, it was quite clear that the Secretary 
of the Interior and the State of Alaska had failed to 
adequately provide for subsistence uses of fish and game by 
Alaska Natives as Congress had expected in 1971. In 
anticipation of the passage of title VIII of ANILCA, a State 
subsistence law was passed in 1978 providing for a preference 
for subsistence uses. At that same time, a bill was working its 
way through Congress to provide for a native subsistence 
priority. The State of Alaska objected to a native preference 
on the ground that it would be unable to administer a native 
priority under State law, and requested that it be changed to 
rural. Congress acquiesced in the State's request, and in 1980 
title VIII of ANILCA was passed, which provided for the rural 
preference for subsistence uses on public lands. The State 
would be entitled to manage resources on Federal public lands 
if it adopted a statewide law that mirrored ANILCA's protection 
for a rural preference.
    Now, State law provided a subsistence preference, but it 
did not have a limitation to rural areas. The State immediately 
ran into trouble with its own Supreme Court in 1985 when the 
Madison decision came down striking down State regulations that 
limited the subsistence preference to rural residents. The 
State legislature responded in 1986 with an amendment that put 
a rural preference into State law. That statute was in turn 
challenged in the McDowell case in which the Alaska Supreme 
Court ruled that the equal access provisions of the State 
Constitution precluded the State from providing a rural 
preference.
    The State made immediate efforts to amend the Constitution. 
Those failed and the Federal Government took over management of 
subsistence uses on Federal public lands in 1990. The 
Administration that took over subsistence management on the 
Federal level failed to assert any jurisdiction over navigable 
waterways in Alaska. As a result of that, the Katie John case 
was the gun. Katie John endorsed Charles of Dot Lake who 
brought litigation to force the Federal Government to apply the 
priority not only to Federal uplands, but also to Federal 
waters. They were successful in the Ninth Circuit Court of 
Appeals in 1995. There were a series of appropriations riders 
that precluded the Federal Government from implementing the 
takeover of these fisheries until 2000. In 2001, the Ninth 
Circuit revisited the Katie John case, and an 11-judge panel 
agreed that the 1995 decision was correct.
    So there you have it. As of today, the Federal Government 
administers the priority for subsistence uses by rural 
residents on all Federal uplands in Alaska and on approximately 
50 or 60 percent of the waters in the State. Very importantly, 
the fisheries protection does not extend to marine waters for 
the most part, although there is some litigation in Southeast 
Alaska about the legality of that. It seems likely that marine 
waters will not be included, and of course those are very 
important for subsistence uses.
    So given this litigation-driven and relatively 
unsatisfactory state of affairs, one might ask what could 
Congress do to provide for a uniform subsistence priority in 
Alaska. There is no doubt as a matter of Federal law that under 
the Indian commerce clause and the general commerce clause that 
Congress has the power to provide a native priority for 
subsistence uses on all land and water in Alaska, including 
State lands in Alaska, and certainly native corporation lands 
which are ironically not protected by the Federal priority 
right now. The Marine Mammal Protection Act that I mentioned 
earlier was passed in 1973. It provides a native exemption, and 
that exemption of course is chiefly utilized and important in 
State waters--those waters out from the mean high water mark to 
3 miles seaward. So Congress has the authority to provide a 
native preference if it chooses to do so.
    Similarly, if Congress chose to provide for a rural plus 
native priority, I believe that that would likewise pass 
constitutional muster. There are dozens of statutes that 
provide benefits for residents of rural areas throughout the 
United States. A challenge was brought by the same plaintiffs 
in the McDowell case to the Federal rural preference, 
attempting to mirror their success in the State court 
litigation. Federal District Judge Holland in 1994 in a lengthy 
opinion rejected the attack on the Federal rural preference. He 
found that it passed muster under the equal protection clause, 
that Congress clearly had the authority to adopt the rural 
preference. The Ninth Circuit ended up vacating that decision 
on technical grounds because the plaintiffs in the case had not 
shown standing, and the case is working its way through the 
Federal Court system again right now. But Judge Holland is 
already on record that the rural preference is permissible, and 
that seems clear as a matter of Federal constitutional law.
    One other issue that has been discussed is whether or not 
such a preemptive Federal statutory scheme could be made 
effective only on the vote of Alaskans. I have searched the 
U.S. Code and found a couple of obscure provisions in the 
banking law area where Congress has in fact preempted State law 
with respect to interest rate regulation and given States the 
authority to have a general election to decide whether or not 
they want to be preempted. So if that course were to be 
followed here, Congress could certainly authorize an election 
to determine whether a preemptive statute ought to be effective 
or not.
    That wraps up my testimony. I would be pleased to answer 
any questions or submit additional matters for the record, Mr. 
Chairman. Thank you very much for the opportunity to make a 
presentation.
    [Prepared statement of Mr. Anderson appears in appendix.]
    The Chairman. Thank you, Mr. Anderson.
    Because the matter before us is a complex one that involves 
much law and litigation, would you say that since 1867 when 
every branch of the Government recognized the special rights 
and privileges of natives and protected such rights, that the 
present law, the ANILCA, has stood muster and is still 
constitutional?
    Mr. Anderson. Yes; I would say that ANILCA is 
constitutional in the sense that it provides a rural 
preference. The fact of the matter is that it was an 
experimental model for State/Federal cooperation, and the State 
government first was unable because of its Constitution to 
maintain its end of the bargain, and now appears to be 
unwilling to maintain its end of the bargain because the 
legislature will not let the people vote on a constitutional 
amendment.
    The Chairman. What percentage of fish and game harvested in 
Alaska are taken by commercial or sports users?
    Mr. Anderson. I am going to turn that around and say that 
less than 2 percent of fish and game taken for any purpose in 
Alaska are taken for subsistence uses. As to the division 
between sport and commercial, that is the other 98 percent. I 
do not know how they are divided up.
    The Chairman. So what is involved is just a small almost 
unidentifiable amount of fish and wildlife?
    Mr. Anderson. That is correct.
    The Chairman. Where does the majority of this subsistence 
activity take place--on Federal or State lands?
    Mr. Anderson. Well, I think it is split between the two. 
There is a lot of Federal land in Alaska so the Federal lands 
are very important. The Federal Government does not have 
interests in all the waters in Alaska, so I think that many of 
the subsistence activities that take place in marine waters are 
extremely important, especially in Southeast Alaska, and those 
are not covered. There are lengthy stretches of the major 
rivers like the Yukon-Kuskokwim and Copper River that are not--
not the Copper River--but other rivers in Northwest Alaska that 
are not covered by the Federal priority. So I would say there 
are very substantial areas that are not protected by the 
Federal priority.
    The Chairman. Dr. Worl, on April 6, your governor announced 
that he will convene a special session of the legislature on 
May 15. Do you have any hope in the outcome?
    Ms. Worl. Senator, the Alaska Federation of Natives has--we 
have gone to the State legislature. We have supported a 
constitutional amendment I think about fives times now in five 
different special sessions. We are hopeful that this 
legislature might pass a constitutional amendment. We had a 
vote in Anchorage where 70 percent of the Anchorage voters said 
that they wanted the State of Alaska to resolve this issue 
through a constitutional amendment. However, unless that vote 
in Anchorage persuades some of the urban legislators to change 
their mind, I do not know. I am just--I have to say that I am 
not really optimistic about it.
    The Chairman. I have a few other questions, Dr. Worl. In 
your testimony, you have stated that for Alaska Natives, 
subsistence means a way of life. Does this hunting, fishing and 
gathering way of life still provide a food base for Alaska 
Native families?
    Ms. Worl. Absolutely. We have very good data provided by 
the State Department of Fish and Game that really shows the 
significance of the food consumption. I think Mary Pete from 
the Subsistence Division may be speaking to quantifying how 
much that is. But if we did not have it in rural Alaska today, 
and you will hear some testimony about the shortages that we 
have had on the Yukon with the fisheries there and the impacts 
that it has had on those communities, if we did not have 
subsistence protections, if we were not able to do that, I 
would say as I have said, we would have hungry people in 
Alaska.
    The Chairman. So it is a matter of life and death in some 
cases.
    Ms. Worl. It is absolutely critical. There are some studies 
that will say that subsistence supplants 20 percent of your 
diet. If you take 20 percent of that diet away, you are still 
hungry. So it is critical and it varies from community to 
community.
    The Chairman. Mr. Akootchook, from your experience, if 
subsistence priorities were not granted you, would you have 
been able to carry on your family?
    Mr. Akootchook. Yes; it is really important to our family--
the fishing and hunting is terrible and all those things for 
us.
    The Chairman. You did not do the hunting just for sport, 
did you?
    Mr. Akootchook. No.
    The Chairman. It is for your livelihood.
    Mr. Akootchook. Livelihood, yes.
    The Chairman. And it provided food for your children and 
your family?
    Mr. Akootchook. Exactly. It was another way for our family 
to go whaling and we would always share always on the North 
Slope and people living in Fairbanks, and we always share with 
this with the whale.
    The Chairman. If this was taken away from you, would your 
family starve?
    Mr. Akootchook. Pardon me?
    The Chairman. If the right to fish and hunt was taken away 
from you, would your family starve?
    Mr. Akootchook. No; I will let my daughter answer that 
because I really have not English very well.
    Ms. Angasan. Hi. My name is Ida Angasan. I am the daughter 
of Isaac Akootchook. The answer to your question is, well, all 
I can say is long ago when my grandfather and his family went 
from one place to another, they were starving. I remember my 
dad telling us that sometimes they would have fish. Other times 
there was no meat. So they went from one place to another 
throughout the border of Alaska to Kaftovik, to Flatman Island, 
Brownley Point, to the mountains, and then toward Barrow for 
our subsistence way of life. So we need our subsistence way of 
life. Thank you.
    The Chairman. I thank you very much.
    And I would like to thank the first panel. I have many more 
questions, but since we have a whole list of witnesses, I will 
be submitting, Dr. Worl if I may, a few written questions to 
you.
    Ms. Worl. Thank you very much, Senator. We will leave you 
the photo and also this news article about them.
    The Chairman. Thank you.
    Our second panel consists of the vice president of Bristol 
Bay Native Association of Dillingham, Andy Golia; the president 
of the Association of Village Council Presidents of Bethel, AK, 
Arthur Lake; fisheries specialist, Tanana Chiefs Conference of 
Fairbanks, George Yaska; the executive director of the Alaska 
Nanuuq Commission of Nome, AK, Charles Johnson; and the 
executive director of Southeast Alaska Intertribal Fish and 
Wildlife Commission of Juneau, Gordon Jackson.
    Mr. Golia.

  STATEMENT OF ANDY GOLIA, VICE PRESIDENT, BRISTOL BAY NATIVE 
                          ASSOCIATION

    Mr. Golia. Thank you, Mr. Chairman and committee members.
    My name is Andy Golia and I am a resident of Dillingham, 
AK. It is a community located on the Bering Sea coast about 300 
miles southwest of Anchorage. During the winter months, I work 
as the program manager for economic development for the Bristol 
Bay Native Association. In the summer, I am a drift gillnet 
salmon fisherman in Bristol Bay's commercial salmon fishery.
    I am honored here to testify on behalf of Harvey Samuelsen 
whom you invited to testify. I would like to apologize to the 
chairman. Harvey asked that I present the chairman with an 
American veteran's cap and I told him I would. I failed to pick 
up that cap from Harvey to get to you.
    With that, our region known as the Bristol Bay region 
covers about 40,000 square miles and includes 30 villages and 9 
major river systems. It also includes the richest and most 
productive salmon habitat in the world. Our relationship to 
that fishery and the land and water that sustain us are defined 
by our subsistence customs and practices that are essential to 
our way of life.
    Approximately 90 percent of the village residents in our 
region are Alaska Natives. Like other natives across Alaska, we 
have practiced a subsistence lifestyle for many generations to 
feed our families and to supplement our cash incomes. 
Subsistence traditions govern our family, community, and 
economic systems and define who we are as a people. We do not 
consider subsistence a recreational activity. It is a way of 
life.
    The Bristol Bay commercial salmon fishery is the economic 
base of our region. It has provided us with the cash we need to 
build and heat our homes, maintain our school system and feed 
our families. Nearly two-thirds of our households derive more 
than 80 percent of their income directly from the fishery. Our 
sons and daughters grew up in this tradition and expect to 
commercially fish.
    However, in recent years, our fishery has collapsed. The 
main reason why our commercial salmon fishery has fallen apart 
is because of the farmed salmon industry. The farmed salmon 
industry has glutted world salmon markets and driven salmon 
prices down. We have seen our salmon prices drop from a high of 
$2.25 a pound back in 1988 to just 40 cents a pound last 
summer. In 1997 and in 1998, our fishery was declared an 
economic disaster by both the State and Federal Governments 
because of failed salmon runs, and again by the State in 2001 
because of weak salmon prices. We have been declared an 
economic disaster 3 out of the last 5 years and it does not 
look good for this upcoming fishing season; 10 years ago, 
Bristol Bay's salmon fishery had as many as 2 dozen salmon 
buyers. We are just down to eight today.
    Over the last 2 years, we have seen a significant number of 
villagers leaving their communities. Back in 1990, Chignik Bay 
had a population of 190. Today, its population is down to 48. 
Folks are looking for jobs elsewhere because very few jobs are 
available in the villages.
    We have villagers moving out of Naknek, South Naknek, Pilot 
Point, and Port Heiden. Schools in these particular communities 
are on the verge of being shut down because they do not have 
enough students to operate the school.
    I guess my point here is our region is going through a very 
difficult time. Usually when we have a bad fishing season, we 
rely more heavily on subsistence hunting and fishing to 
survive. But this is just not a bad business season for Bristol 
Bay. The long-term outlook for salmon prices in our region 
looks grim.
    I just want to say that I guess the other reason why we 
need to hunt and fish out in Bristol Bay, Dr. Worl indicated 
that the cost of living is extremely high. The University of 
Alaska Cooperative Extension Service completed a cost of food 
study on 20 communities in Alaska, and Dillingham residents pay 
among the highest in the State for food. It costs an average of 
about $190 per week to feed a family of four. This amounts to 
about $760 a month. In comparison, Anchorage residents pay $101 
per week and Portland, OR residents pay $87 per week--or less 
than one-half of what we pay in Dillingham. One gallon of milk 
in Dillingham costs $6.48. We pay $2.59 for a gallon of 
gasoline. We also pay about 23 cents per kilowatt hour for 
electricity, or twice as much as what Anchorage residents pay. 
In some of our villages, they have to pay $4 a gallon for 1 
gallon of gasoline, $3 a gallon for home heating fuel, and 45 
cents per kilowatt hour for electricity.
    Essentially what I am saying is that because of the high 
cost of living, we save through subsistence harvest to help 
heat and light our homes.
    I would like to close by making just a couple of other 
points here. On the Alaska Peninsula, there has been a decline 
of the Northern Alaska caribou herd. In 1975, this herd 
numbered 25,000. Today, the herd is down to 6,000. In spite of 
this decline and the dependence of subsistence hunters on this 
food source, this year the State awarded 400 statewide permits 
to hunt this herd, while Federal subsistence management awarded 
only 40 permits for 11 villages.
    We are also seeing a growing number of native allotment 
donors selling their native allotments so they could pay their 
bills. These allotments are being sold in many cases to outside 
interests who do not always share our subsistence traditions. 
They seek economic gain by building sports hunting and fishing 
lodges that compete against us for fish and game resources. We 
have approximately 104 parcels of native allotments in Bristol 
Bay for sale right now.
    That concludes my testimony. Thank you.
    [Prepared statement of Mr. Golia appears in appendix.]
    The Chairman. Thank you very much. I note that most of the 
witnesses are summarizing their statements and I thank you for 
that. I can assure you that your full statement will be made 
part of the record.
    Our next witness is President Lake.

  STATEMENT OF ARTHUR LAKE, PRESIDENT, ASSOCIATION OF VILLAGE 
                       COUNCIL PRESIDENTS

    Mr. Lake. Mr. Chairman, the Honorable Senator Inouye, 
[statement in native language.]
    Senator Inouye, my name is Arthur J. Lake. I am here to 
speak concerning subsistence, and that introduction, sir, is 
one of the basic reasons why there are so many problems with 
subsistence in Alaska.
    I am the president of the Association of Village Council 
Presidents for the Yukon-Kuskokwim Delta, Yup'ik Eskimo. Our 
offices are located in Bethel, AK in Southwest Alaska. We have 
submitted written testimony for the record. What I am going to 
say here is more personal because subsistence is such a 
personal issue to all the people of my region.
    To the Government, the issue of managing hunting, fishing 
and gathering comes down to a question of control. But to the 
Yup'ik, it is our very survival. There is not enough vocabulary 
in the English language to give our term ``Nerangnaq Saraq'' an 
adequate definition, but what it comes down to in its awesome 
simplicity is this, ``Nerangnaq Saraq'' defines us--the Yup'ik/
Cup'ik and other Alaska Natives. The non-native term is 
``Subsistence.''
    Ellam-yua, the Great Spirit or God, put the Yup'ik on this 
earth to play a pivotal role in our environment. We are part of 
the giving land and living resources of the Delta. We play a 
role of the natural cycles of life. We take, but we give. It is 
our responsibility to act as keepers and protectors of the 
land. Our practices of ``Subsistence'' is equivalent to the 
taking of a sacrament. In the taking of a wild fish or animal, 
we honor its spirit for being put on this earth to provide for 
us, feed and clothe us, for sustaining us in such an 
environment we find ourselves in. Despite a demonstrated 
history of sustainable customary and traditional use of the 
world around us, our hunter and gatherer society has been held 
in limbo over who gets to control our harvest rights.
    We are the last of the great hunters and gatherers of North 
America. We practice our birthright and legacy every day. We 
also happen to reside in a national wildlife refuge, a public 
land the size of the State of Washington. We also have State 
public lands located within our region. We are constantly at 
the mercy and whim of environmental trends that are meant to 
form blanket restrictions on all public lands, thereby 
unwittingly restricting and denying our modest access, use and 
activities required for ``Subsistence.''
    Our practices reflect migratory patterns. We had been a 
nomadic people up until about 50 years ago, and still are in 
spirit and emotion. We still maintain seasonal campsites 
because as seasons change, so does our quest for fresh food--
cyclical natures that can both gratify and humble us, reward us 
or punish us. There were times of starvation where elders and 
young, sometimes whole families in villages perished. In our 
past, there was nothing more humbling than dying hungry, to 
remind in us the inherent value in protecting the resources to 
satisfy our subsistence needs today.
    We may not have had Western science, but our traditional 
knowledge and techniques still manage to achieve sustainable 
conservation and a natural balance. We knew when to restrict 
ourselves when a species was in trouble. We knew how to 
practice predator control and enhance habitats. Our region is 
so vast and yielding and has different characteristics from one 
village area to the next. What is as easy for a sufficiently 
infrastructured community resident to do in a few minutes in 
the supermarket would take 1 day or up to 1 week for a native 
hunter or gatherer to harvest in the Y-K Delta. Our 
``Subsistence'' diet affects our daily lives, yet we work very 
hard for it because we eat what we have known for a millennia. 
Alaska and Federal regulations require permits and licenses. 
How can we have a piece of paper to allow us to practice our 
customary and traditional ``Subsistence'' activities? It is 
like asking one of your constituent shoppers to get a permit to 
go into a Safeway or a Giant supermarket. Some regulatory 
attempts have even asked us to prove ourselves indigent in 
order to qualify for our ``Subsistence'' rights. Such attempts 
demean the nobility of our practices of providing for our 
families. We should not have to choose to be poor in order to 
practice our heritage and feed our families. It is a part of 
our culture.
    Our ancestors, our parents, and our children eat our native 
foods because it is our food. I promise you, even if I won the 
lottery, which I did not yesterday, and became a millionaire, I 
would still eat, I would still crave uqsuq or tepa, that is 
fermented fish heads, a traditional food that would be to you a 
repugnant smell. To me, it is a delicacy and our people will 
continue to eat that kind of food despite the availability of 
other kinds of foods.
    Our hunting and gathering practices are not easy. We battle 
the Arctic elements and sometimes risk our lives to feed our 
families to find the wild foods we crave. Our surviving 
``Subsistence'' way of life is one of the last great vestiges 
in our self-preservation and sustaining society.
    My verbal testimony is required to be short, and while it 
is impossible to tell you how important ``Subsistence'' is, my 
written testimony is more detailed in an effort to attribute 
some credit to this way of life. The only way to know 
``Subsistence'' is to live it and experience it. It is a wonder 
to behold, and we are honored to continue its practice as a 
tribute to our ancestors and their legacy.
    It is not an easy life, but it is ours. It is our duty and 
our obligation to save it and preserve our culture, our way of 
life. Our forefathers, the ones before us, and Ellam-yua gave 
us the gift of ``Subsistence,'' the gift of life, and we will 
never give that up.
    In reference to Mr. Golia's statements 1 minute ago, we 
have the highest cost of living in the poorest area of the 
Nation.
    Mr. Chairman, thank you for holding this hearing, for 
giving us a chance to put a voice to something so very 
important to such a small population. I will be happy to answer 
any questions that you may have.
    Quyana. Thank you.
    [Prepared statement of Mr. Lake appears in appendix.]
    The Chairman. Well, Mr. Lake, Mr. President, I thank you 
very much for your very moving statement.
    May I now call on Mr. Yaska.

 STATEMENT OF GEORGE YASKA, FISHERIES SPECIALIST, TANANA CHIEF 
                           CONFERENCE

    Mr. Yaska. Thank you, Mr. Chairman.
    My name is George Yaska. My comments today reflect the 
testimony, the position of the Tanana Chiefs Conference, a 
consortium of 42 tribes in the interior of Alaska. I have been 
wanting to talk for many years about a truer subsistence 
priority, and that is a priority that is difficult to reflect 
in law, and definitely in practice. We have been thinking about 
a true subsistence priority for many years. I first raised this 
issue after, oh, roughly a decade of seeing ANILCA on the 
ground, managed both public lands and on State lands and on 
native lands.
    A true subsistence priority is difficult to come by, 
especially when we do not have a full-time priority. I think 
that is the case in Alaska now, but for the folks who are not 
here today, I have to speak for them and their thoughts. They 
are the real experts. I was called, I suppose, because at my 
company in the Doyon region, I am regarded as a natural 
resource expert. The real experts, though, are back there in 
40-plus villages within the Yukon and Kuskokwim drainages in 
the interior of Alaska.
    They are the folks who have to live there everyday, who 
have to compete with guided moose hunters and hundreds, 
thousands of trophy moose hunters, and commercial fishermen 
throughout the Nation. Oftentimes, our true subsistence 
priority is not apparent. Although we may at times have a 
bountiful resource, we practice strong management. We advocate 
for the best management possible. We work with all the managing 
agencies--the Alaska Department of Fish and Game, the U.S. Fish 
and Wildlife Service, the National Marine Fisheries Service, 
all of the convening commissions and boards. We rarely ever get 
to reap those benefits, when at times we do expect and produce, 
rather the earth produces a bountiful resource, commercial and 
sports users are always first in line and actually highly 
competitive in the arena of harvest, and often gain the 
greatest benefit.
    So those folks back there have asked me to say that the 
subsistence priority is not always in effect. Although we may 
have a bountiful resource, there may not be a need for 
subsistence priorities seemingly. There is just a limited 
amount of land and a limited amount of resource, and they want 
me to say that they need a true subsistence priority.
    I also work, Mr. Chairman, on a number of comanagement 
agreements, and I wanted to speak briefly about those today and 
express the Tanana Chiefs Conference true appreciation for your 
work in gaining funds for research on the cause of the decline 
of salmon in Alaska. The Arctic Yukon Kuskokwim Coalition has 
begun that research with the National Marine Fisheries Service, 
the Alaska Department of Fish and Game, and the U.S. Fish and 
Wildlife Service. Some $5 million--we may be pairing that with 
other resources here real soon. I think there are some real 
clues about where we might be going with that. So again, thank 
you for that, Mr. Chairman.
    I did want to say and speak about the K River team, 
probably one of our better accomplishments--a longstanding 
arrangement with a moose management working group back along 
the Koyokuk River who has worked with the Alaska Department of 
Fish and Game and the U.S. Fish and Wildlife Service for about 
8 years, 9 years. They are finally beginning to come close to a 
negotiated agreement with the U.S. Fish and Wildlife Service, 
Federal agencies, non-BIA-DOI agencies, to assist in the 
management of the Koyokuk and Kanuti National Wildlife Refuges.
    It has been, though, a long struggle, as many things are 
different in Alaska relative to the rest of the Nation. It has 
been a long struggle. If we had a mandate that would allow us 
to work on this in an easier fashion with the Federal agencies, 
but now the Federal agencies can walk away from the table and 
that is perfectly fine. They do not have to stay at the table. 
So it has been a struggle to keep them at the table. But I just 
wanted to say that we are finally getting there, Mr. Chairman, 
and with a bit more help, with your help, I think we can 
weather these difficulties.
    Thank you, Mr. Chairman.
    [Prepared statement of Mr. Yaska appears in appendix.]
    The Chairman. I thank you very much, Mr. Yaska.
    May I now call upon Mr. Johnson.

STATEMENT OF CHARLES JOHNSON, EXECUTIVE DIRECTOR, ALASKA NANUUQ 
                           COMMISSION

    Mr. Johnson. Thank you, Mr. Chairman.
    I would like to thank Art and George Yaska for making 
introductory remarks for my statement, which is on 
comanagement. Mr. Lake introduced the topic of how do we deal 
with management issues, how do we manage our subsistence. And 
George raised the issue of comanagement. That is what my 
statement is about.
    This is the heart and soul of Alaska Native people--
subsistence. Through the generations, subsistence has taught us 
to be the stewards of the land and waters that support us; to 
take what we need and to return to the land what we do not 
need. We are taught not to waste and to share. With a respect 
for and a thorough knowledge of the environment, our ancestors 
were able to survive and even thrive in the harshest conditions 
because we managed our harvest. The principle of not wasting 
meant that we understood the principle of a sustainable 
harvest.
    The 1994 reauthorization of the Marine Mammal Protection 
Act allowed the Secretaries of the Interior and Commerce to 
enter into, quote, ``cooperative agreements'' with Alaska 
Native organizations for the management of the subsistence 
harvest of marine mammals. Comanagement began in Alaska in 1977 
when the Alaska Eskimo Whaling Commission signed an agreement 
with NOAA to manage the harvest of bowhead whales. This 
comanagement agreement was successful because of the vast 
knowledge of the whaling captains that they had on the behavior 
and the numbers of the bowhead whales, and their willingness to 
share this information with the management agencies, and the 
Alaska Eskimo Whaling Commission development of self-regulation 
and the resolve to abide by these regulations, and the 
willingness of NOAA to consider the traditional knowledge held 
by the whaling captains and augment that knowledge with new 
scientific techniques and equipment, and the willingness of 
NOAA to share management responsibility with the Alaska Eskimo 
Whaling Commission, and to support shared management.
    The Alaska Nanuuq Commission, which I represent, was 
organized in 1994 to represent the hunters and villages in 
North and Northwest Alaska in the negotiation of the United 
States-Russia Polar Bear Treaty. Thanks to the Native American 
policy developed by the late director of the U.S. Fish and 
Wildlife Service, Mollie Beattie, the Alaska Nanuuq Commission 
became a full partner with the U.S. Fish and Wildlife in the 
negotiation of the treaty. This treaty was signed on October 16 
here in Washington, DC in the year 2000. The treaty is unique 
in that it recognizes the traditional knowledge of the native 
peoples of both Alaska and Russia, and provides for their full 
and equal participation in setting harvest limits and the 
management of the subsistence harvest of the polar bear.
    When the Russian Ambassador to the United States, Yurie 
Ushakov, signed the treaty, he declared that it was the most 
democratic treaty that Russia had ever signed. Once the treaty 
is ratified, the Alaska Nanuuq Commission will have achieved a 
level of comanagement that only the Alaska Eskimo Whaling 
Commission has reached. The Alaska Nanuuq Commission is now 
developing a native-to-native agreement to implement the treaty 
with the Association of Traditional Marine Mammal Hunters of 
Chukotka, which represents the native people of Chukotka in 
Russia.
    Other successful comanagement agreements beside the Alaska 
Eskimo Whaling Commission and the Alaska Nanuuq Commission 
include, but this is not a complete list, this is just a 
sample, the Alaska Native Harbor Seal Commission with National 
Marine Fisheries on harbor seals; the Alaska Sea Otter and 
Stellar Sea Lion Commission with the U.S. Fish and Wildlife and 
the National Marine Fisheries on sea otters and sea lions; the 
Alaska Beluga Committee with NOAA on beluga; the Eskimo Walrus 
Commission with the U.S. Fish and Wildlife on walrus; and the 
Yukon-Kuskokwim Delta Goose Management Plan between the 
Association of Village Council Presidents and the U.S. Fish and 
Wildlife.
    You will note, Mr. Chairman, that all of these agreements 
are between Alaska Native groups and Federal agencies. We just 
heard of one with the State, and those are very rare. With the 
exception of the Goose Management Plan, the agreements cover 
marine mammals, which have specific legislation--the 
aforementioned Marine Mammal Protection Act. But the same 
principles can be applied to terrestrial species and to fish. 
We have a history of successfully working with the agencies 
that go back for more than 25 years. With the Federal 
Government now in control of subsistence in much of Alaska, 
this is a great opportunity that these comanagement agreements 
be extended to the regional nonprofit, as George mentioned 
about the Tanana Chiefs, and to other Alaska Native tribes.
    Thank you, Mr. Chairman.
    [Prepared statement of Mr. Johnson appears in appendix.]
    The Chairman. I thank you, Mr. Johnson.
    May I now recognize Mr. Jackson.

  STATEMENT OF GORDON JACKSON, EXECUTIVE DIRECTOR, SOUTHEAST 
        ALASKA INTERTRIBAL FISH AND WILDLIFE COMMISSION

    Mr. Jackson. Thank you, Mr. Chairman.
    My name is Gordon Jackson. I represent the Central Council 
Tlingit-Haida Indians of Alaska. We are a member of the 
Southeast Alaska Intertribal Fish and Wildlife Commission. On 
behalf of Chairman Matthew Kookesh, I would like to thank you 
for hosting this hearing this afternoon.
    Over the last year, we have organized many of the tribes by 
resolution to address many of the subsistence and commercial 
fishing problems in Southeast Alaska. There are many. Like I 
said, the Commission is composed of a member from each of the 
tribes in Southeast Alaska. One of the areas that we started 
looking at immediately was the comanagement of fish and game in 
Southeast Alaska. We feel that it is a great solution to many 
of the problems relating to subsistence and commercial fishing.
    As a member of the Central Council, I am also a member of 
the Migratory Bird Commission. As a commission which is 
composed of members of the State and Federal agencies and the 
12 regions throughout the whole State, we meet quarterly and 
review the statistics, promulgate rules and regulations for the 
taking of migratory birds and eggs for subsistence users. The 
relationship is very professional and everyone takes their 
responsibilities very seriously. The relationship between the 
tribes, State, and Federal agencies is very good, and we have 
learned to trust one another and to secure the best possible 
policies to protect the subsistence user and the resources.
    We do not take too many birds in Southeast Alaska, and we 
have proposed the promulgation of taking of sea gull eggs 
outside of Glacier Bay. But just getting together with the 
folks from the Yukon-Kuskokwim area and talking about such 
things as the goose management plan gave us a great 
understanding of the Southeast people as to the value of 
migratory birds within their region, and have given them our 
support and helped to develop and promulgate rules and 
regulations with them so that that resource continues into the 
future.
    Another member of the Central Council also is a member of 
the Marine Mammal Commission, and also the Harbor Seal 
Commission. His name is Harold Martin. Those Commissions are 
comanagement organizations, and Harold Martin has explained to 
me that that comanagement plan works really well, very similar 
to the Migratory Bird Treaty. Over the last few days, the North 
Pacific Fisheries Management Council authorized subsistence 
fishery for rural residents and tribes throughout the whole 
State. In those provisions, they allow for some agreements with 
tribes and governments for harvesting and monitoring and 
planning and other issues relating to subsistence use of 
halibut.
    On the Commission, we have started to look at the effects 
of the Pacific Salmon Treaty as it relates to subsistence and 
commercial fishing. We have met with the Columbia River 
Intertribal Fish Commission and really feel very strongly that 
we need to address that so that we are responsive.
    One of the things that--one of the studies that we just 
finished as a Commission was a regulation and review of all the 
rules and regulations relating to subsistence in Southeast 
Alaska as it relates to Southeast Alaska Natives, and also all 
the court cases. We find that a lot of them are real different 
from one end of Southeast Alaska to another--in fact, village 
to village. The State and Federal agencies address it 
completely different, and we feel real strongly that some kind 
of comanagement system in which communication between all the 
entities would give better understanding of the way people live 
and the policies that affect them would provide for a better 
system of management throughout the region.
    Southeast Alaska tribes are surrounded by Federal land, 
with some State, Federal, and native corporation lands 
sprinkled throughout the region. It is one of the goals of the 
Southeast Intertribal Fish and Wildlife Commission to initiate 
management plans throughout the region. Indeed, we have already 
had some success with comanagement plans for sockeye streams 
that have been identified by local communities for taking of 
sockeye for subsistence. We really believe in a comanagement 
system that goes to the lowest common denominator to be a good 
system.
    Thank you very much, Mr. Chairman.
    The Chairman. Thank you very much, Mr. Jackson.
    May I ask the panel members to just stand by because we 
will be asking questions when the last remaining four witnesses 
have concluded.
    May I now call upon the chairman of the Alaska Inter-Tribal 
Council of Anchorage, Mike Williams; and the executive director 
of the Rural Alaska Community Action Program of Anchorage, 
Jeanine Kennedy.
    Chairman Williams.

   STATEMENT OF MIKE WILLIAMS, CHAIRMAN, ALASKA INTER-TRIBAL 
                            COUNCIL

    Mr. Williams. Good afternoon, Mr. Chairman, members of the 
committee.
    My name is Mike Williams. I am currently the chairman of 
the Alaska Inter-Tribal Council, and also Juneau-area vice 
president for the National Congress of American Indians, and 
also on the board of the Native American Rights Fund.
    On behalf of the 188 tribal governments who are members of 
the Alaska Inter-Tribal Council, I want to express thanks to 
this committee for taking time to hear our concerns about 
subsistence. More than that, Senator Inouye, I wish to add 
thanks to individual tribal members, many, many of whom in this 
year of 2002 hunt, fish, and gather not only for themselves and 
their families, but to share the bounty of the land and waters 
with others in their communities as has been our tradition for 
hundreds and thousands of years. Thank you for listening to us.
    The great majority of our people have never left Alaska. 
Some rarely ever leave immediate vicinity of their villages. I 
think it is true to say that many do not read newspapers, and 
for them a legal brief is an alien document. Policies and 
written laws and regulations are likewise foreign concepts. 
Their idea of a law is what they were taught by parents or 
elders as they set out to learn how to support themselves from 
the land.
    Increasingly, Mr. Chairman, they are feeling the stress of 
ever more restrictive regulation, ever narrowing seasons, 
decreasing fish stocks and game populations. Some of our people 
do deal on daily basis with the task of maintaining legal 
protections for our way of life. What they have fought over the 
past 20 or 30 years are more or less public relations and 
policy battles, for historic accuracy, for regulatory fairness, 
for semantic truth.
    When we speak of historic accuracy, what we want people to 
remember is the reason why title VIII of the Alaska National 
Interest Lands Conservation Act exists. Let me read into the 
record today that reason, as set forth by the late Congressman 
Morris Udall on November 12, 1980. ANILCA fully reflects the 
commitment that was made to the Alaska Native people when their 
land claims were passed by Congress. Although there are many 
non-natives living a subsistence way of life in rural Alaska, 
the subsistence title would not be included in the bill if non-
native subsistence activities were the primary focus of 
concern. Rather, the subsistence title and other subsistence 
provisions are included in recognition of the ongoing 
responsibility of Congress to protect the opportunity for 
continued subsistence uses in Alaska by Alaska Native people--a 
responsibility which is consistent with our well-recognized 
constitutional authority to manage Indian affairs.
    Today, there are people who would like Congress to think 
that ANILCA was promulgated in a kind of policy vacuum without 
consideration for the aboriginal rights of our people who 
earned those rights by using and occupying vast amounts of 
Alaska for subsistence. Without that history of aboriginal use 
and occupancy, there would have been no basis for our land 
claims.
    When we speak of regulatory fairness, we speak of a 
situation where our people's subsistence needs and concerns 
have been pushed to the bottom of the agendas for the Alaska 
State Board of Fish and Game. Time after time, we have seen our 
proposals voted down because the State system requires 
management by agencies who are staffed by political appointees. 
And politics, being what it is, those appointees represent 
well-funded, well-organized commercial fishers and sport 
hunters and fishers.
    Mr. Chairman, our tribes would have liked to support State 
management of subsistence because we are not only tribal 
citizens, we are also Alaskan citizens. But it is difficult, if 
not impossible, to support a system that routinely neglects the 
needs of tribal hunters, fishers and gatherers.
    Finally, Mr. Chairman, I speak of semantic truth. That word 
``semantic'' comes from the French word ``semantique,'' which 
in turn derived from the old Greek work ``semantikos.'' Their 
meaning stems from the verb ``to signify,'' which comes from 
yet an older word meaning ``to mark.'' We in Alaska have 
watched a small, but politically powerful group of people 
attempt to mark out the boundaries of the subsistence issue.
    They have almost succeeded in convincing the general public 
that the subsistence issue is one centered around geography and 
discrimination. The two arguments are condensed into their 
strident statement that legal protection of subsistence in the 
Federal law in ANILCA amounts to discrimination by zip code, 
which brings us back to accuracy in reporting history. Title 
VIII of ANILCA says that Federal law shall protect not Alaska 
Natives or tribes, but rural Alaska residents. That language 
stems from the compromise that our leaders reluctantly accepted 
at the time ANILCA was passed by Congress. We accepted it 
because our villages were, and many still are, located in 
remote and rural areas of Alaska. But we have never forgotten 
Morris Udall's assurances that the original intent of title 
VIII was to protect the ability of our villages to support 
themselves from the land and waters of Alaska.
    Since the enactment of our land claims, the Alaska Native 
people have expended untold cost in dollars, human resources 
and the attendant social stresses on our people, on the 
subsistence issue that is before you today. It is the position 
of the Alaska Inter-Tribal Council that we would have been 
better able to direct our precious resources towards improving 
the quality of life for our tribal members if our aboriginal 
hunting and fishing rights had not been extinguished at the 
time our land claims were settled in 1971.
    On April 2, the city of Anchorage included on its municipal 
elections ballot a question: Should Alaska's voters be allowed 
to vote on the subsistence issue? The result was an 
uncompromising yes. In spite of that outcome, the leaders of 
the legislative majority were quoted in the Anchorage Daily 
News as saying they would still oppose a State law to protect 
subsistence. Instead, they said they will continue to push for 
changes to title VIII of ANILCA.
    I call on this committee to lead an effort to place this 
issue back where it belongs, in the hands of Congress. Felix 
Cohen said this Nation's founding fathers acted in wisdom to 
place the affairs of tribes in your hands. After all, the 
States of this Union are committed by law and by politics to 
consider the desires and needs of every one of their citizens 
regardless of race. Tribes, as few in number as we are, are 
vulnerable to the nearsighted policies necessitated by that 
fact. Only Congress possesses the political objectivity that 
can see beyond the parochial fights to the best interest of 
tribes, their governments and their members.
    We would like this committee to consider carefully a 
proposal to repeal the section of the Alaska Native Claims 
Settlement Act which extinguished our aboriginal hunting and 
fishing rights. You have that power.
    Quyana Chuknook.
    [Prepared statement of Mr. Williams appears in appendix.]
    The Chairman. I thank you very much, Mr. Chairman.
    And now may I call upon Ms. Kennedy.

STATEMENT OF JEANINE KENNEDY, EXECUTIVE DIRECTOR, RURAL ALASKA 
  COMMUNITY ACTION PROGRAM, INC., ON BEHALF OF DONNE FLEAGLE, 
 PRESIDENT, BOARD OF DIRECTORS, ACCOMPANIED BY EILEEN NORBERT, 
            EXECUTIVE VICE PRESIDENT, KAWERAK, INC.

    Ms. Kennedy. Thank you.
    My name is Jeanine Kennedy and I have a voice impediment. 
And once my voice starts working, I am okay, so I just want to 
put you at ease.
    I am here, Mr. Chairman and members of the committee, to 
testify for my board president, Donne Fleagle, who intended to 
be here, but at the last minute could not. The Rural Alaska 
Community Action Program, also known as RurAL CAP, is a 
statewide organization that was founded in 1965. I am very 
proud to say, as I sat here and listened to some of the 
testimony, the role that RurAL CAP has played in giving 
grassroots people a voice at the local level.
    RurAL CAP provides education, information, training, and 
advocacy in approximately 70 villages at the current time. And 
in that process, we bring people together to learn what their 
ideas are and to help them to be able to come together and 
meet. Many of the comanagement groups that came into being 
started with the Rural Alaska Resources Association, which 
brought people together to talk about how we could get 
legislation to give comanagement abilities to the people. We 
followed the model that started in Kwefla, when the tribes out 
there had a management agreement with the Feds for the caribou. 
And then, of course, that was followed by the Goose Management 
Plan.
    Just recently, we have been working with a group called the 
working group on getting halibut as a subsistence food. We had 
a major success. The chairman of that group, Matt Kookesh had 
been working since 1981 to come up with agreements wherein 
people could manage at their local level with the Federal 
Government, and now that has come into being.
    RurAL CAP is governed by a 24-member board of directors 
that represents virtually every sector of Alaska, public and 
private, rural and urban, native and non-native. While we have 
programs whose focus includes urban residents, our closest 
partners, as I have said, are the people of village Alaska. In 
1999, our board met in Fairbanks, and as we do periodically, we 
took a survey and made a plan among the board members about 
what their main priorities were. Of course, subsistence was 
number one.
    I was born and raised in Alaska. My mother, who was 
Athabascan; my father was non-native. I can remember very early 
on before I was 1-year-old swishing through the forest in a dog 
sled as my mother checked her traps, and in the spring being in 
the back of her parka when she checked her muskrats.
    So subsistence is important to me, as it is for the people 
that I work for.
    Increasingly, the activities of subsistence are coming 
under more and more attack--first, from non-native Alaskans, 
many of whom came to our State because they place a value on 
the land and the wild resources; from the State of Alaska which 
opposed the inclusion of language specifically protecting 
Alaska Native subsistence in ANILCA title VIII; from an 
increasing majority of Alaska residents who are not well-versed 
on Alaska Native history, including knowledge of how our land 
claims were settled and why there is a title VIII of ANILCA--
there would not have been a title VIII in ANILCA if there had 
not been indigenous peoples, that is why that title VIII is 
there; finally, from a majority of the Alaska State legislature 
who would like to amend away the subsistence protection in 
title VIII.
    As you know very well, the State of Alaska would like to 
regain management over subsistence on all of Alaska's public 
lands, including the 60 percent that is in Federal lands. Title 
VIII of ANILCA requires that an essential component of State 
subsistence management is a State law that mirrors the Federal 
subsistence protection contained in title VIII. That 
requirement is at the center of the so-called subsistence 
impasse, which your committee addresses today.
    The Alaska Constitution was approved by Congress in 1958. 
It includes a section which says that all of Alaska's natural 
resources are to be reserved for the common use of all Alaskan 
citizens. Those who oppose the Federal subsistence protections 
in title VIII of ANILCA have used the Alaska Constitution as a 
weapon against the Alaska Native way of life. The legislative 
majority, and their mostly non-native constituents, are a lobby 
in Congress to change ANILCA, instead of changing the State 
Constitution to allow a State subsistence protection law.
    Over the last several years, Alaska Governor Tony Knowles 
has mounted a campaign which he says will make things better. 
During his 8 years as Governor, he has called no less than four 
special sessions to address subsistence. In fact, last month he 
called yet for another special session which will begin May 15. 
In 1996, the Governor appointed a task force to hold hearings. 
That task force issued a report in 1997 which recommended the 
issue be presented to voters to ask whether they support an 
amendment to the State Constitution.
    The Governor's task force also recommended changes which 
they termed technical to title VIII of ANILCA. It must be noted 
here that the Alaska Native community, including the Alaska 
Inter-Tribal Council, RurAL CAP, and the Alaska Federation of 
Natives voiced opposition to a majority of the 1997 task force 
recommendations.
    In 2001, Governor Knowles appointed some 40 Alaskans to 
participate in what was called a Leadership Summit on 
Subsistence. Of those 40 Alaskans, the majority represented 
Alaskan business and commerce, including several Alaska Native 
corporations and only two could be deemed to be represent 
tribal interests. The Summit participants recommended that the 
question of amending the State Constitution go to the Alaskan 
voters, and included a value statement on the importance of 
subsistence to Alaskan tribal cultures.
    Last fall, Governor Knowles appointed 1 dozen or so Summit 
participants to what was called the Subsistence Drafting 
Committee. The committee's purpose was to develop language for 
a legislative resolution which if passed by the State 
legislature would result in a proposition to be placed on the 
general election ballot. None of Governor Knowles' initiatives 
to address subsistence included what could be termed an open 
public process. The Task Force took public testimony on an 
invitation-only basis for one-half day. The Summit was held in 
a public setting, but did not include taking testimony. The 
Drafting Committee meetings were open to the public, but no 
testimony was taken either. It is therefore predictable that 
the Alaska Native and tribal community have voiced serious 
issues regarding the Drafting Committee's product.
    In the short time I have to testify, I present the 
following five concerns. First, no one on the committee 
represented tribes or their governments. Second, the 
legislative resolution attempts to appease sport, commercial 
fishing, and hunting interests by changing whats in ANILCA 
title VIII is a priority of use for rural subsistence users, to 
a priority for local users. Third, the legislative resolution 
calls for the establishment of a second-tier priority for 
individuals and communities who are able to demonstrate their 
reliance on fish, game, and other renewable resources. Fourth, 
the proposal would put question such as allocation and 
geographic boundaries for use areas into the hands of the 
legislature and/or the Boards of Fish and Game. Fifth, no 
measure is included that would advance tribal comanagement of 
subsistence resources despite, as you heard, the great amount 
of progress that has been made in regard to comanagement.
    I am not a subsistence, but I am an advocate, and Mr. 
Chairman I believe the time has come for Congress to make 
remedial action on the issue of subsistence in Alaska. The 
State of Alaska has had well over 20 years to live up to its 
side of the agreement that was made when our aboriginal hunting 
and fishing rights were extinguished. And in 1971, with the 
passage of ANCSA, our people were assured that our right to the 
nutritional, economic, cultural and spiritual benefits of 
subsistence would be protected under Federal and State law.
    Our subsistence rights are not based on geography. Our 
subsistence rights are based firmly in the obligation of the 
Federal Government to manage native and tribal affairs with the 
best interests and survival of our people well in mind.
    Thank you very much.
    [Prepared statement of Ms. Kennedy, delivered on behalf of 
Donne Fleagle, appears in appendix.]
    Ms. Kennedy. Also, I would like to introduce Eileen 
Norbert, who is the executive vice president of Kawerak, Inc.

STATEMENT OF EILEEN NORBERT, EXECUTIVE VICE PRESIDENT, KAWERAK, 
                              INC.

    Ms. Norbert. Thank you, Mr. Chairman.
    Loretta Bullard, our president, did send in testimony, as 
well as a resolution from our board of directors, with our 
stand on subsistence. I did also submit written testimony. I am 
not going to go over all of it. However, I felt it was very 
important that this committee take a look at our situation in 
Norton Sound. We are the only one where subsistence fishing was 
totally closed and we went into what is called a tier-two 
situation, which I would like to share with you, and the human 
impacts it had on our people.
    In 1991, the Department of Fish and Game closed our 
subsistence fishing. Everybody was in total shock. We had one 
elder who walked along the beach. He looked for dead fish. She 
was so hungry for fish. Since then, we have gone to the Board 
of Fisheries, which is very political, politically appointed, 
tried to work with the Governor through the legislature, and 
you have already heard we have a legislature in Alaska who is 
hostile toward subsistence. That is the way we feel, for all 
the actions and non-actions they have taken.
    Two years ago, the situation with our fishing was so bad 
that the State opted to put us into a tier-two fishery, which 
means that each individual who wants to go subsistence fishing 
has to fill out several pages of application. Out of 500 or 600 
families in Nome, only 10 people got permits. They could get 
100 fish. Even though we had recommended to the Board of 
Fishery, and especially at the urging of our elders, rather 
than just letting 10 people fish, you know, let 20 or 25 people 
fish, we will get less. But that is the type of atmosphere that 
we have to deal with. We can recommend, but we cannot make 
decisions.
    Last year, it improved a little bit. The board did, say, 
expanded the number of people who could fish to 20, but reduced 
the number of fish that we could take to 50. Right now, ANILCA 
is the only law protecting our subsistence. We feel like we are 
at the mercy, like I said before, of a hostile situation in the 
State of Alaska. Kawerak opposes any amendment to ANILCA that 
would weaken subsistence protections for rural Alaskans. If 
this State legislature fails to address this issue, Kawerak 
strongly supports a restoration of Alaska Naive aboriginal 
hunting and fishing rights through an act of Congress. As Mike 
and several other people had mentioned before, we supposedly 
extinguished--actually Congress extinguished our aboriginal 
hunting and fishing rights, but Congress has the power to 
reinstate those, and that is what we urge you to do.
    Thank you very much for this opportunity. I would like to 
just close by sharing with you what one of our elders said. I 
had asked her when all this trouble started, is there one word 
in Inupiaq that means ``subsistence.'' And she said she cannot 
describe subsistence without describing our spiritual and 
cultural beliefs. And then after all that, she finally gave me 
one word, ``nufla,'' which basically means our way of life. But 
the way we are feeling right now is that this is a slow 
cultural genocide, and we ask for your help that it will stop, 
and we ask for your protection.
    Thank you.
    The Chairman. I thank you very much.
    Before we proceed, I would like those assembled here to 
note that at this moment there is a very intense debate 
proceeding on the Senate floor on the matter of the Artic 
National Wildlife Refuge [ANWR], which is very close to Alaska, 
so therefore your Alaskan Senators had asked to be excused, and 
that is why they are not here.
    Second, I think it would be appropriate to note that this 
hearing was held at the request of Julie Kitka, the president 
of the Alaska Federation of Natives. She is the one who 
recommended that a record be made of the concerns and values of 
Alaska Native people as they relate to subsistence hunting and 
fishing. But there is also another meeting at this moment, a 
very important one, a meeting convened by the Secretary of 
Defense, Mr. Rumsfeld, who is now briefing members of the 
Senate on the current situation in Afghanistan. As chairman of 
the Defense Appropriations Committee, I should be there, but I 
decided this hearing is just as important, if not more 
important. That is why I am here.
    Julie, do you have anything you want to say?

   STATEMENT OF JULIE KITKA, PRESIDENT, ALASKA FEDERATION OF 
                            NATIVES

    Ms. Kitka. Just on behalf of our cochairs Albert Kookesh, 
Roy Huhndorf and our board of directors and our people, I want 
to thank you very much for holding this oversight hearing and 
listening to our people and the concerns.
    Our number one objective for the hearing was really for the 
committee to hear how people are doing on the ground, and be 
aware of the fact that our Federal protections in the law 
affect real people and we have many people that are hurting 
right now. This photographic illustration of an elderly 
couple--again, a graphic picture, if you will, that there are 
real people behind this law and we very much are grateful for 
the committee's interest and attention. We will report how 
things go in the special session coming up next month. We are 
working very hard. In the past, we have had our congressional 
delegation assisting every step of the way--in fact, trying to 
convince our State legislators, and we hope that we have their 
support this time again, too.
    The Chairman. Thank you very much, Madam President.
    I can assure you that the full testimony and the transcript 
will be shared with the members of the committee and I will 
personally urge them to read and study the transcript, and 
thereby learn of your concerns on this matter.
    Thank you very much.
    Ms. Kitka. Mr. Chairman, I wanted to ask if Isaac from 
Kaktovik might be able to explain one thing to you. We were 
talking earlier today about your name, and he was explaining to 
us on how in the Inupiaq language that they pronounce your name 
and what that means in Inupiaq.
    The Chairman. I hope it is good. [Laughter.]
    Mr. Akootchook. That means ``iamulautuk''--that means a 
good person to help everyone of us since whatever we are. 
Julie, this is important to, and down in Alaska it is really to 
help us with the work. That means in the Alaun language, 
``iamulautuk''--that is a good person. You work for the whole 
people in the world.
    The Chairman. I thank you very much. I hope my staff heard 
that. [Laughter.]
    In fact, I commented to my staff that I could very well be 
sitting there because I look like most of you. [Laughter.]
    The final panel, Director of the Division of Subsistence, 
Alaska Department of Fish and Game in Washington, Mary Pete; 
and the chairman of the Federal Subsistence Board of Nenanna, 
Alaska, Mitch Demientieff. You will have to pronounce that name 
for me.
    Mr. Demientieff. I have been called worse than that, 
Senator. it is Demientieff.
    The Chairman. Ms. Pete.

      STATEMENT OF MARY PETE, DIRECTOR OF THE DIVISION OF 
        SUBSISTENCE, ALASKA DEPARTMENT OF FISH AND GAME

    Ms. Pete. Thank you.
    Chairman Inouye, thank you for this opportunity to address 
you on this topic that has consumed almost all of my 
professional work. My name is Mary Pete. I am the director of 
the Division of Subsistence for the State of Alaska, Department 
of Fish and Game. I started out as a subsistence researcher in 
Western Alaska in 1984. I am honored to be here to represent 
the State of Alaska.
    For many Alaskans, subsistence is a core value. It is a 
lifeblood of our cultural, spiritual, economic and physical 
well-being. It puts food on the table and builds strong 
families. State and Federal laws provide a priority for 
subsistence uses in Alaska. The crux of the dilemma is the 
difference in who qualifies for the preference in State and 
Federal law, as identified in an Alaska Supreme Court decision 
in 1989.
    All Alaskans potentially qualify for the preference under 
State law, and only rural residents qualify under Federal law. 
Federal public lands encompass approximately 60 percent of 
Alaska, so the rural priority applies in most of the State. The 
State priority applies in the remaining 40 percent of Alaska. 
As you can imagine, this dichotomy and dual management 
objectives creates management complexity and confusion for the 
public. The majority of Alaskans understand the concept of 
subsistence, recognize its importance, and clearly support it. 
Just 2 weeks ago, Alaska Governor Tony Knowles announced 
another special session of the Alaska legislature to address 
subsistence. This session will begin following completion of 
the current regular legislative session in mid-May.
    The sixth such session in 13 years, the Governor is 
building in more momentum than you have seen on this issue in 
recent years. Earlier this month, Anchorage voters in a 
landslide, more than 72 percent, said they wanted the 
opportunity to vote on subsistence. Just last week, the 
Catholic Church of Alaska issued a rare pastoral letter 
supporting a subsistence resolution. Last summer, the Governor 
convened a Subsistence Summit of business, civic, religious, 
native, fishing and hunting leaders which then produced an 
innovative draft constitutional amendment. That amendment is 
currently pending in the Alaska legislature. Every poll 
indicates that if allowed to vote on the issue, Alaskans will 
overwhelmingly choose to protect subsistence. For more than a 
decade, Alaskans have paid a high price for not allowing 
Alaskans to be heard. We are not protecting subsistence as we 
should, and management of much our fish and game has been 
surrendered to the Federal Government.
    The urban-rural divide continues to grow. There are other 
issues that make the urban-rural split even wider, but nothing 
approaches the frustration over the inability to permanently 
protect subsistence. The State has had a subsistence priority 
law that gives preference to rural residents for wild fish and 
game since 1978. Since then, the State has employed a division 
of researchers to document and understand the role of 
subsistence hunting, fishing and gathering in the lives and 
communities of Alaskans, and to assist the State's management 
boards in implementing the subsistence priority law.
    One of the attachments to this presentation summarizes what 
we have learned after over 20 years of research on subsistence 
harvests and uses in Alaska. As expected, we have learned that 
subsistence is vital to the cultures and economies of rural 
Alaskans. Subsistence use areas in the State, as defined by the 
Joint Boards of Fisheries and Game, include 20 percent of the 
State's population. Although economies in small rural 
communities are mixed, in that both need production of local 
wild resources and cash to exist, subsistence is the foundation 
of their sustainability. Jobs are few and often seasonal, with 
costs of living being the highest in the Nation. Access to key 
wild resources such as salmon, caribou, herring and marine 
mammals is the reason Alaska Native communities are located 
where they are.
    Family-based subsistence production and consumption groups 
help to maintain the community cohesion and the sense of 
identity in these primarily Alaska Native communities. 
Subsistence harvest averages 375 pounds of wild fish and game 
per capita in rural communities, and provide nearly 44 million 
pounds of food per year at an estimated strict weight 
replacement value of nearly $220 million.
    This dollar estimate does not include the immeasurable 
value of the sense of well-being and accomplishment of 
providing for one's family.
    Subsistence happens in the context of families without 
public funds--families who educate their youth in the 
intricacies of the harvest and processing of wild foods and 
clothing and other crafts made from its proceeds. The 
composition of subsistence harvests attests to the importance 
of fish in Alaska. Fish make up 60 percent of the wild food 
harvested statewide and regional averages of up to 82 percent 
in some coastal areas. Among the Yupiit of Western Alaska, the 
word for food as a general category is also the word for fish. 
So if you ask someone in Yup'ik if they have eaten, you will be 
asking them if they have eaten fish.
    I would like to return to the challenges I mentioned 
earlier associated with dual State-Federal management of 
subsistence uses. We have had experience with dual management 
of game since 1990. Federal management of fisheries did not 
actively commence until October 1999, but we expect that some 
of the same problems that we witnessed with game management 
will occur with fisheries management.
    Dual State-Federal management of fish stocks compounds an 
already challenging endeavor, especially with declining returns 
of important species such as salmon. Economic disasters for 
salmon have been declared for four out of five recent years in 
Western Alaska. The State has implemented the subsistence 
priority by restricting or closing non-subsistence uses and 
scheduling fishing times to allow subsistence users scattered 
throughout affected drainages an opportunity to get what they 
can.
    The narrow scope of Federal authority has disrupted 
relationships among different uses. The Alaska Board of 
Fisheries and Game provide for subsistence uses first, then 
provide for other uses--namely sport, commercial and personal 
use--based on the availability of the resource.
    In some cases, subsistence uses are inextricably linked 
with commercial uses such as the small-scale commercial 
fisheries along the Yukon and Kuskokwim Rivers, and the boards 
know that change in subsistence regulations can have effects on 
the commercial fisheries and vice versa. Cash generated from 
commercial uses is used to support subsistence activities, 
especially when the people and equipment are the same, as in 
the case of these small-scale commercial salmon and herring 
fisheries. The Federal Subsistence Board, in its deliberation, 
does not consider uses other than subsistence. This approach 
creates a problem inasmuch as actions of the Federal Board may 
unintentionally disrupt the relationship between subsistence 
and other uses. This can detrimentally affect subsistence, as 
well as other uses.
    State and Federal allocation procedures are not compatible. 
State law requires that its management boards identify those 
fish stocks and game populations subject to customary and 
traditional uses, and to identify a specific allocation needed 
for subsistence use and to provide an opportunity for that use. 
These procedural steps enable the boards to provide a priority 
for subsistence uses, and if the harvestable surplus allows, to 
provide for other uses.
    The Federal Board is under no obligation to explicitly 
identify the stocks or populations of concern and the 
subsistence need, or other uses prior to making a subsistence 
allocation. To provide a subsistence priority and also 
accommodate as many other uses as possible requires knowledge 
of the available resource and the full range of competing uses. 
These differences and procedures and mandates have resulted in 
lost hunting and fishing opportunity, and under certain 
conditions can lead to over-harvest of the resource.
    Other more specific problems or differences between State 
and Federal management include in-season or real-time 
management and the Federal approach to customary trade. 
Alaska's fishery management programs have been successful in 
part because of the ability of on-site managers to effect in-
season closures or openings as required to assure conservation 
and allocation objectives are met. These decisions must be made 
decisively on available information and are necessarily made on 
short notice.
    Imposing the Federal Board has been problematic. In the 
summer of 2001, there were unnecessary closures for subsistence 
salmon fishing to State-qualified subsistence users in the 
Yukon and Kuskokwim river drainages. Both the State and Federal 
subsistence laws recognize customary trade as a legitimate 
subsistence use. The State boards receive proposals for 
regulations that define and allow for particular customary 
trade practices. In effect, trade is closed until opened by the 
board.
    In contrast, the Federal Board takes the approach that 
trade is allowed, yet unregulated unless the Federal Board acts 
to restrict the activity. The Federal approach is a problem, 
given the controversial nature of this activity, the potential 
for this practice to affect other uses including other 
subsistence uses, and the risk of abuse with subsistence-caught 
fish being introduced into commercial markets.
    The Federal program has filed proposed regulations on 
customary trade of salmon, and unless it follows overwhelming 
public recommendation to defer action until thorough review and 
evaluation of its potential impacts is understood, stands to 
act on these proposals this summer.
    I do not want to leave the committee with the impression 
that the State has been a whiny passive party to dual 
management. We have initialed a Memorandum of Agreement with 
the Federal Office of Subsistence Management that outlines an 
effective, coordinated dual management approach. The State's 
goals are to protect the resource, provide for the subsistence 
priority, and for opportunities for other uses. We have been 
working on specific protocols under the MOA to implement 
specific objectives, such as each government's roles in sharing 
of information, in-season management, and determinations on 
amounts necessary for subsistence uses, to name a few 
protocols.
    In these efforts, we have involved users, particular Alaska 
Native tribes and organizations. Another attachment to this 
testimony is a paper on collaborative management by the Alaska 
Department of Fish and Game. It includes projects and 
initiatives we have been or continue to be engaged in with 
various public groups. Effective management of public resources 
is a partnership of man parties,, not the least being those 
most dependent on the resource.
    I would like to dispel the sense that the State has been 
wholly recalcitrant on the subsistence impasse. As you have 
heard, there have been five special legislative sessions called 
since 1990 to address this issue. As I noted earlier, Governor 
Knowles has called three sessions himself and has just issued 
another call to begin May 15. Resolutions for constitutional 
amendments and legislation to change subsistence management 
have also been introduced. The block in efforts to address the 
impasse have been a small minority of State Senators in the 
Alaska legislature.
    Mr. Chairman, we welcome participation of any member of 
this committee in urging an Alaskan resolution of the 
subsistence dilemma. Comprehension of a subsistence way of 
life, lifestyle or livelihood requires recognition of its 
cultural, economic and nutritional significance to Alaskans, 
particularly Alaska's Native people. The State will continue in 
its efforts to resolve the subsistence dilemma because we 
believe unitary State management is best for the resource and 
its users.
    This concludes my formal testimony. Thank you for your 
time.
    [Prepared statement of Ms. Pete appears in appendix.]
    The Chairman. Thank you very much, Ms. Pete.
    And may I now recognize Chairman Demientieff.

 STATEMENT OF MITCH DEMIENTIEFF, CHAIRMAN, FEDERAL SUBSISTENCE 
                             BOARD

    Mr. Demientieff. Thank you, Chairman Inouye.
    My name is Mitch Demientieff and I have been the Board 
Chairman for the Federal Assistance Board for the past seven 
years. We, of course, as has been well-documented, been 
operating since 1990, and more recently since 1999 doing 
fisheries. So I will not dwell on that too much, as has been 
well-documented by previous testimony as well as our written 
testimony that we have submitted.
    We are of course very concerned about the importance of 
subsistence and we congratulate you and the committee for 
having this hearing because it does recognize the importance of 
that and it gives the people of Alaska the opportunity to 
express to you what those concerns are.
    The strengths of our program in the wake of Alaska's not 
being able to recapture subsistence management on Federal lands 
are the very strength of our programs. The foundation of the 
program is within our Regional Advisory Councils. We have 98 
members on 10 regional councils who give willingly of their 
time. It has been--we demand very much from them. They do that 
on a volunteer basis, and we are very proud, and it is the work 
that they do in their villages, in their areas that they serve, 
that brings the advice to the Federal Board that allows us, or 
that make recommendations to us that allow us to make decisions 
on their behalf for the way that they wish to have their 
resources managed and their Federal subsistence uses per ANILCA 
implemented in their land.
    So we really congratulate that. It has been a strength ever 
since I have been on the Board and it continues to be, 
especially now with the expanded role of the fisheries. So we 
really congratulate those people and we continue to rely upon 
them. It gives us on-the-ground solid advice.
    In addition, we have as Mary pointed out earlier, that we 
are signing next week, on the 23rd, the MOA with the State and 
the Federal. We had been operating under an interim MOA for 
some time now, and we finally got it down to where we have got 
the principal signatories together next week.
    In addition, the Federal program has funded both a State 
liaison and a Federal liaison, which we provided with our 
Federal funding so that can continue to have somebody whose 
sole purpose is to continue to provide a close working 
relationship with the State and the Federal managers.
    In addition, we have funded the State for several, or many 
different programs with regard to research activities for a 
specific species, that we share with the State, so that the 
Boards of Game and the Board of Fish and our Board can utilize 
the same material. The State has reciprocated. We use very much 
of the State's own produced material to make our decisions as 
well.
    So we feel that that is an important part of the efforts 
that we have been trying to make.
    We also have our partners in fisheries monitoring, where we 
are contracting with tribes and other organizations in the 
State to do research projects. Again, we share those with the 
regulatory makers, whether they be State or Federal, and we are 
letting the local people--in many of those cases are doing 
those actual projects.
    I point these things out because in the absence of the 
State of Alaska not being able to manage, we do our best to 
have Alaskans managing Alaska's resources. And so we are really 
reaching out with that regard.
    And the final piece to that puzzle is the recently added 
tribal liaison. There have been some time now there has been a 
call for us to do tribal consultations with the tribes in 
Alaska. We added that position, and that position is actively 
consulting on every major decision that we make with the tribes 
in Alaska. We do that on request, whether it be a regional 
meeting, whether the person be requested to go actually to the 
village, and it has been a very valuable addition to our 
program.
    In closing, Mr. Chairman, the Federal program since the 
inception continues to support the State recapturing management 
of Alaska's resources. So nothing has changed as far as that is 
concerned. We look forward to that date where that very thing 
happens. So we continue to be solid in that corner, and that 
has not changed.
    As we approach the questions, Mr. Chairman, I point out to 
you if there are questions for me that I am not an 
administrator for the Federal program. I am a part-time 
employee as the Chairman of the Board. I get paid when we meet, 
basically, to shape policy and to make regulations. So if I run 
into any questions that I cannot answer, I will take 
responsibility to get the answer to you promptly. So I just 
point that out, because I can talk about policy and 
regulations--those kinds of things that I am actively involved 
in. But being just a part-time employee, I will get you the 
answers. Besides that, they will pay me to get you the answers.
    So with that, I thank you very much, Mr. Chairman, for the 
opportunity.
    [Prepared statement of Mr. Demientieff appears in 
appendix.]
    The Chairman. I thank you very much, Mr. Chairman. I 
appreciate it.
    Before I call upon the other panelists, may I ask the both 
of you a few questions? Ms. Pete, in listening to your 
testimony, am I correct to reach this interpretation that under 
Alaska State law the word ``rural'' subsistence preference may 
potentially qualify all Alaskans?
    Ms. Pete. Mr. Chairman, that is correct. The rural 
provision remains in law, but in effect the Supreme Court 
decision has deemed it unconstitutional, so all Alaskans 
qualify.
    The Chairman. The Supreme Court of----
    Ms. Pete. The Alaska Supreme Court.
    The Chairman. So there is no Alaska Native preference?
    Ms. Pete. No; potentially all Alaskans qualify, so there in 
effect is no preference.
    The Chairman. One of the witnesses testified that 2 percent 
of all the fish and wildlife is taken for subsistence by Alaska 
Natives, and the remaining 98 percent for recreational sport 
and commercial purposes--are those statistics correct?
    Ms. Pete. The portion that is the subsistence output ranges 
from 2 to 4 percent, depending on the size of the commercial 
catch. The commercial fishery fluctuates in part by the size 
of--primarily the ground fish fishery, which is millions and 
millions of tons. That is in the ballpark, and that is 2 to 4 
percent of the total wild resource production in the State is 
taken by rural residents for subsistence, not Alaska Natives 
per se, but rural residents.
    The Chairman. And the remaining 96 to 98 percent----
    Ms. Pete. Approximately 94 to 96 percent is by commercial 
fishing, and the remaining is by sport use.
    The Chairman. And do you have Alaska Natives involved in 
commercial fishing and sports fishing?
    Ms. Pete. Yes; we do. And in fact, in parts of Western 
Alaska, many commercial permit holders, commercial salmon and 
herring permit holders are Alaska Native who are also engaged 
in subsistence.
    The Chairman. Is that a large number?
    Ms. Pete. Of the 700 to 800 permit holders on each of the 
two major rivers, the Yukon and Kuskokwim, I would say the 
majority of them are Alaska Native.
    The Chairman. So they are involved in the bulk of 
commercial fishing?
    Ms. Pete. That is for in-State waters. The total of the 
wild resource output includes very large ground fish fisheries 
in the Bering Sea and Gulf of Alaska, and those as you may know 
are done by factory trawlers that employ people from many 
different countries, not just Alaskans.
    The Chairman. And your definition of rural applies only to 
Alaska lands, and not Federal lands.
    Ms. Pete. That is correct.
    The Chairman. Mr. Chairman, is it your understanding that 4 
percent is taken by rural Alaskans?
    Mr. Demientieff. Yes, sir.
    The Chairman. And of that 4 percent, how many are Alaska 
Natives?
    Mr. Demientieff. I would--let me see. I am not real sure of 
the census counts with regard to that. I would imagine in the 
more rural areas that definitely a majority of those would be. 
When you get into some of the hub communities, the larger 
communities, you get a little bit more non-native population in 
there. But those still are classified as rural communities for 
our program.
    The Chairman. The witnesses that appeared before your 
presentation all indicated that subsistence was absolutely 
necessary to sustain life. Is that correct?
    Mr. Demientieff. Yes, sir; being a life-long subsistence 
user myself, because I still do--born and raised and still 
reside in Nenanna, I understand that very completely. A large 
part of our family's food comes from the subsistence resource, 
but it is tied with our society and also importantly with our 
cultural activities. We have to have wild resources at our 
ceremonies and potlatches and those types of things. It is an 
integral part of our cultural practices.
    The Chairman. What is the geographic scope of your Board's 
regulatory authority?
    Mr. Demientieff. About----
    The Chairman. Does it just cover Federal lands?
    Mr. Demientieff. Right. About 230 million acres in Alaska, 
and it is checkerboarded in different----
    The Chairman. Does it include all waters within the 
borders?
    Mr. Demientieff. Navigable are still managed by the State.
    The Chairman. But all other waters are within your 
jurisdiction?
    Mr. Demientieff. Right, within Federal jurisdiction. Right.
    The Chairman. Does your Board have problems in dealing with 
conflicting definitions of the term ``rural''?
    Mr. Demientieff. No; conflicting between the State's 
definition--or, I'm not conflicting----
    The Chairman. State and Federal--are they conflicting or 
are they the same?
    Mr. Demientieff. Yes; they are conflicting. Well, no that 
is not right exactly. I am not sure about the State's point of 
view. I am very clear about ours, but I am not sure about the 
State. As it relates to subsistence, of course, as Mary pointed 
out, potentially all Alaska residents wherever they are are 
eligible for subsistence. Whereas rural residents under the 
Federal program are eligible for subsistence.
    The Chairman. Have Federal agencies made any effort to 
establish cooperative management agreements with Alaska Natives 
to implement the subsistence priority?
    Mr. Demientieff. Yes; and in recent years beyond that, we 
have tried to on particularly thorny issues have tried to--we 
have remanded, the Board has remanded some issues back to local 
areas, and actually have gone to include the State managers, 
the Federal managers, our regional council representatives, and 
the State Fish and Game Advisory Committee members to work out 
issues that have been problematic issues. We have had good 
success in the last few years. There have been at least one-
half of different cases where we have been able to resolve 
thorny issues with conflicting land ownership and conflicting 
regulations.
    So beyond cooperative, we also have that that is very 
important to them.
    The Chairman. What is the funding for protecting fish and 
the wildlife resources essential for subsistence in Alaska?
    Mr. Demientieff. Mr. Chairman, that would be one of the 
things I am going to have to get back with you on, on the 
funding, the full funding breakdown. I have got a partial, but 
then I could get you the full budget.
    The Chairman. Has it increased or has it decrease?
    Mr. Demientieff. Well, yes, with the addition of the 
Fisheries Program, it has increased. But I will get you a full 
breakdown of that. That will be one of the things I will get.
    The Chairman. I have other questions that are a bit 
technical in nature, and might require the study of your 
management group. May I submit them to you?
    Mr. Demientieff. Sure. Okay.
    The Chairman. Will the others join us now?
    Thank you very much, Ms. Pete.
    I am not an Alaskan obviously, and therefore my knowledge 
of Alaska is rather limited, although I believe I know more 
about Alaska than most of the members of the Senate. But when 
we speak of subsistence gathering of fish and wildlife, is it 
for sport and recreation or is it for food and sustenance? I 
would like to have a response from each of you.
    Mr. Golia. Mr. Chairman, I consider myself a subsistence 
user. I go out and generally catch 30 to 40 king salmon every 
year to make king salmon strips it is part of I guess a family 
tradition. I generally go out and get five moose per year--I 
mean caribou per year, five caribou per year, and generally a 
moose every year. Generally, I would go about getting 20 
gallons of salmon berries and 30 gallons of blackberries. If I 
did not, I would not be married with my wife insisting that we 
go out and gather these berries for our freezer. So I look at 
it as a way to feed my family.
    The Chairman. Would your statement represent the activities 
of your members?
    Mr. Golia. Pardon me?
    The Chairman. You serve as vice president of the Bristole 
Bay Native Association, is that right?
    Mr. Golia. I am listed as vice president of the Bristol Bay 
Native Association, Mr. Chairman. That is not the case. I am an 
employee of the Bristol Bay Native Association.
    The Chairman. Do the members of the Bristol Bay Native 
Association engage in subsistence hunting and fishing for food 
or for recreation?
    Mr. Golia. I would say primarily food. I think a lot of the 
villages, many of them do not have employment opportunities. I 
think that the only jobs you could find in some of our 30 
communities is maybe a job as a janitor at the school; maybe a 
job as the postmaster; maybe a job as a VPO, or village police 
officer; and maybe a job teaching in the school. That is it.
    The Chairman. Mr. Johnson.
    Mr. Johnson. Yes, Mr. Chairman; as I mentioned earlier or 
as I noted, I am with the Alaska Nanuuq Commission, and we are 
primarily involved in managing with the Fish and Wildlife the 
subsistence harvest of Nanuuq or of polar bears. I am real 
proud to note that Isaac Akootchook is a member of the Alaska 
Nanuuq Commission, and a very highly respected member at that.
    But generally when we take polar bear, it is not for sport. 
It is not for a trophy. We often usually take it on an 
opportunistic situation when are hunting for seals or walrus. 
But engaging in--I am a marine mammal hunter, and I rely 
heavily on walrus and seals in particular, in particular ugruk 
is my favorite seal. And we do that for our food.
    The fact that we enjoy it as much as I do or as much as we 
do does not mean that we are out there sport hunting. We are 
not out there to get trophies. When we do take a polar bear, we 
want to take a smaller one because the skin is easier to work 
and the meat is better. So we are not out there sport hunting 
for trophies. We are out there for food and because it sustains 
our way of life and our culture.
    The Chairman. Mr. Lake.
    Mr. Lake. Yes, Mr. Chairman; the use of wild fish and game 
is used primarily for food and also for sharing with relatives, 
elders in the village and those that cannot hunt or fish for 
themselves.
    The Chairman. So you are not taking it for trophies?
    Mr. Lake. I have never done one, so I do not know, sir.
    The Chairman. Mr. Williams.
    Mr. Williams. Yes; I am a full-time hunter and fisherman, 
and we depend on fish and game for food and for sustenance of 
our health, and we depend on that food to survive. We have no 
regard for biggest antlers or going for the trophy. I, for one, 
do not take home the antlers of what I caught because we cannot 
eat it. But for carving of those things, maybe we will take 
them home. But for all the fish we catch, that I catch, and all 
the moose and the caribou, the bear, we take home and we use it 
for survival and we also share with our elders in our 
community. So nothing is wasted, everything is used.
    The Chairman. Mr. Yaska.
    Mr. Yaska. Thank you, Mr. Chairman. The question was 
whether we take it for sport rather than sustenance or 
subsistence. And the question of course, and within the 
interior of Alaska for moose, king salmon, spruce chicken, 
ptarmigan, beaver, all of those species, and many more. Both 
game and fish are primarily for subsistence, if not exclusively 
for sustenance. And sustenance has been developed and defined 
by the 16,000 people working in the interior over thousands of 
years. It is a highly developed definition and it is a highly 
treasured definition and not to be, of course, spoken about 
lightly. Thought it is a great honor to be representing those 
folks today, and certainly you honor that here by the hearing 
today. Thank you.
    The Chairman. As a matter of congressional courtesy, the 
transcript of this hearing will be shared with the legislature 
of Alaska. If you had the opportunity to address the 
legislature in 2 minutes, what would you tell the legislators?
    Mr. Golia. I would request that they pass a vote on the 
constitutional amendment and actually let the people of Alaska 
vote on this issue. They have I think held up that particular 
issue for years now, and I think that the Alaskan people want 
to see a result to that.
    Mr. Johnson. Yes, Mr. Chairman; unfortunately many of the 
legislators that are in Alaska have come from other places. I 
think my first request to them would be that they try to 
understand what our needs are for the native people of Alaska 
as far as subsistence, the spiritual values that we have in 
relation to that way of life, and then to allow the people of 
Alaska, because there are many people of Alaska who are not 
natives that understand us and support our efforts at a 
subsistence priority, and I would ask the legislature, please 
let the people of Alaska decide that.
    Mr. Lake. I would let them know and hope that they would 
understand that our cultural and traditional values to us are 
sacred and holy, and that without these, there would be no life 
for us. And that we need this life to pass on to our children 
that has been passed on to us by our ancestors. And also that 
they give an opportunity for the people of Alaska to vote on 
the issue, and one point is that my people, the Yup'ik Eskimo, 
in their annual convention have indicated to the State of 
Alaska that they do not want to see a constitutional amendment 
on subsistence unless there is a change in the conscience of 
the State of Alaska concerning subsistence--a change of 
consciousness about that. And it would be so right for them to 
do that.
    The Chairman. Thank you.
    Mr. Williams. I would tell the legislature that Alaska has 
greatly benefited from rural areas--oil, gas, timber, minerals, 
gold. You know, we have expended our resources to the benefit 
of all of Alaskans, and many have benefited from Alaska. Yet we 
continue to live in third world conditions in Akiak. You know, 
I come from a small village of 350, and from the area that is 
poorest of the poor. And when I look at that, and with all the 
billions that have come out of Alaska, we still are striving in 
having equal treatment by State of Alaska. And as we have $30 
billion, we still live and are receiving those services that 
are not coming to us. But as for the subsistence issue, I think 
that is the only thing that I am asking for, is to protect my 
subsistence way of life that has been practiced or has been 
handed down from generation to generation, and they need to 
respect that. As we have heard here today, we really need that 
for our survival, and it is not just sport or game. I think it 
is for survival. So that is what I would tell them to do is to 
do the right thing for our survival in Alaska as Alaska Native 
people.
    The Chairman. Mr. Yaska.
    Mr. Yaska. Thank you, Mr. Chairman. It is almost a trick 
question. What do we want to tell them or what would we tell 
them? We have heard hundreds of testifiers, perhaps thousands 
in the last 12 years and many more years, actually, about the 
importance of subsistence from rural folks and people far more 
eloquent than I, elderly folks, and learned leaders from our 
region and throughout Alaska. I am not sure how else you could 
explain the importance of subsistence, the importance of 
getting along as people in this great Nation. But there is not 
anything to fear among subsistence managers, among folks from 
rural Alaska. Do not think we want all of the resources to 
ourselves. These are all of our resources in this Nation, and 
we can certainly come to agreement on managing and sharing 
these resources. There is not anything to fear. Thank you.
    The Chairman. Thank you very much. I am pleased to call 
upon the vice chairman of the committee, Senator Ben Nighthorse 
Campbell.

 STATEMENT OF HON. BEN NIGHTHORSE CAMPBELL, U.S. SENATOR FROM 
      COLORADO, VICE CHAIRMAN, COMMITTEE ON INDIAN AFFAIRS

    Senator Campbell. Mr. Chairman, I apologize for not being 
here throughout the whole hearing. I had an early conflict, and 
then as you probably know, Secretary Rumsfeld was doing a 
classified briefing on the problem in Afghanistan. One thing 
led to another, and I just very frankly apologize to this 
committee that I could not be here. But I have always been 
extremely interested in the plight that traditional people have 
found themselves in when we deal with subsistence. And when I 
think, of course I was not around then, but as I hear from 
elders who in turn heard from their elders, and then you 
compare it with what we go through now in which you have to 
have a license or permit to be able to hunt in most States, a 
license or permit to be able to fish in most states, a license 
or a permit to be able to use the things that were provided by 
the Creator of all things for this earth.
    It is really kind of amazing to me because it was not 
native peoples, whether they were Alaskan or here in the Lower 
48, that depleted the whales. It was profiteering adventurers 
that killed them off and boiled them down. It was not the 
native peoples. It was not the native peoples that clubbed tens 
of thousands of harp seals just for that beautiful white fur. 
The same thing--it was profiteering, non-native peoples that 
did that. It was not the native peoples that started killing 
walrus just to saw off the tusks. It was the ivory traders. And 
it was not the native peoples that ever benefited from all 
those things that were depleted.
    I know people in the northwest part of our Nation now, 
native peoples are fighting an endless battle just to try to 
preserve some of the fishing rights they had for salmon when it 
was not them that ever depleted the salmon. It was the 
commercial canners, as everybody knows, or anybody with a lick 
of sense ought to know. It was never the native peoples.
    And yet the native peoples are always the ones that have to 
suffer. It is the native peoples that always have to try to 
prevent more erosion of the rights that they have historically 
had from the beginning of time, long before there was anybody 
else on the mainland or in Alaska. They can probably track 
their own ancestry back hundreds if not thousands of years to a 
time when they did not have to conform to all the laws we now 
have and they were not on the defensive because somebody else 
killed off the animals.
    I have been to Alaska a number of times, most of the times 
with Senator Stevens for a variety of things, and have many 
friends that live in Alaska, and I just know that in some cases 
Native Alaskans are divided on issues. Some of them are divided 
on the issue we are dealing with on the floor right now, 
whether we should open ANWR and you are probably very aware of 
that debate that some people who follow the caribou were saying 
we should not. Other people believe that there are 
opportunities, and native people believe that there are 
opportunities and we should.
    That is one thing when we have the community divided and we 
are not quite sure what we ought to be doing to help Native 
Alaskans. But on the question of subsistence, I do not know of 
two native sides to that. If you are going to do the right 
thing, there is only one side and that side is that we ought to 
protect the rights of the aboriginal people that have had that 
right, used that right, have every right to continue it, 
whether it is under a court of law in the United States or 
under a legislative body here in Washington, or under just a 
basic right in the realm of humankind and human suffering and 
human subsistence--it seems to me they have that first right.
    I just wanted to tell this committee that Senator Inouye 
has always been on the side of native peoples in the fight for 
fairness here in Washington, and I have always been by his 
side, and want you to know that I know something about it. I 
have probably a lot more to learn, but you have got at least 
two friends on this committee. I want you to know that.
    Thank you, Mr. Chairman.
    The Chairman. Thank you very much.
    Are you not glad you waited to hear the words of wisdom?
    Senator Campbell. My problem is I always get mad, as you 
know, Senator Inouye. [Laughter.]
    The Chairman. I would like to announce that the record of 
this hearing will remain open for 2 weeks, during which time if 
you wish to submit additional testimony or if you wish to make 
corrections, please feel free to do so. And we will also be 
submitting questions to Mr. Demientieff for his response.
    So with that, I thank all of you for traveling long 
distances to be with us. We will do our best to convince the 
members in the Alaska legislature to do the right thing. Your 
words will be read by them.
    [Whereupon, at 4:12 p.m., the committee was adjourned, to 
reconvene at the call of the Chair.]
=======================================================================


                            A P P E N D I X

                              ----------                              


              Additional Material Submitted for the Record

=======================================================================


 Prepared Statement of Rosita Worl, Ph.D., Sealaska Heritage Institute

    Honorable Senator Inouye and other members of the U.S. Senate 
Committee on Indian Affairs. I would like to express my gratitude to 
the committee for holding this oversight hearing on Subsistence Hunting 
and Fishing in the State of Alaska. I am honored and humbled that you 
have been invited me to testify before this committee. The challenges 
to subsistence protections and the subsistence lifestyles of Alaska 
Natives are critical, and my testimony will address the necessity of 
maintaining the Federal protections as they exist under the Alaska 
National Interest Lands Conservation Act of 1980.
    I am Rosita Worl. I am a member of the Board of Directors of 
Sealaska Corporation, which was created by Congress in the settlement 
of our aboriginal land claims. I sit on the Board of Directors of the 
Alaska Federation of Natives and serve as the Chairperson of its 
Subsistence Committee. I have a joint appointment as the President of 
the Sealaska Heritage Institute and a professor of anthropology at the 
University of Alaska Southeast. .
    In my testimony, I will be drawing on both my professional training 
and research and my personal knowledge and experience as a participant 
in the subsistence culture of the Tlingit. I will apply these 
perspectives to discuss the significance of subsistence hunting and 
fishing in Alaska. I hold a Ph.D. from Harvard University in 
Anthropology. My subsistence studies began in 1975 when I went to the 
Arctic to study the political development of the North Slope Inupiat. 
Since that time I have conducted research throughout the circumpolar 
Arctic and Alaska. I have served on various scientific committees of 
the National Science Foundation, the Smithsonian Institution, the 
Alaska Eskimo Whaling Commission and the National Scientific Committee 
for the Exxon Valdez Oil Spill Studies. I have written numerous 
scientific articles on subsistence economies and Alaska Native cultures 
and have a general understanding of the significance of subsistence.
    Today my subsistence studies are sometimes referred to as the early 
work of subsistence research in Alaska. I believe I was among the first 
anthropologists to study subsistence as an integrated socioeconomic 
system and to assess its interrelationship with the cash economy. This 
was in part due to the development of economic anthropology as a 
theoretical approach. I have applied both qualitative and quantitative 
methodological approaches to my study of subsistence.
    It has often been said that subsistence cannot be defined, and 
Alaska Natives generally describe it as a ``Way of Life.'' I beg your 
indulgence if my testimony sounds like a lecture, but I hasten to add 
that in the need for brevity, it may seem as if I am oversimplifying 
the complexity of the subsistence systems in Alaska. We must have a 
basic understanding of the dynamic socioeconomic subsistence systems as 
they exist today. This knowledge is necessary if we are to ensure that 
the legal regimes of both the Federal and State government protect the 
subsistence lifestyles of Alaska Natives and rural Alaska, and second 
in order to analyze how legislation has the capacity to protect or 
undermine subsistence activities.
    In spite of the overwhelming problems imperiling Alaska Native 
societies, their cultures remain vibrant. Their languages and cultures 
have persisted, although changed, despite decades of governmental 
pressure to assimilate them into the larger society and the extensive 
forces of sociocultural impacts impinging on their communities. They 
are among the last societies in North America, who remain largely 
dependent and culturally attached to a hunting and gathering way of 
life. The last nomadic hunters in the United States settled in a 
permanent community in some 60 years ago. Today they continue to 
practice their ancient ceremonies and to hold the worldview and values 
of their ancestors. For the United States, they represent a rich 
cultural resource that is worthy of protection.
    Subsistence, as it is practiced by Alaska Natives, contains three 
basic interrelated components: Economic, social, and cultural. It 
operates as a cohesive, adaptive and functioning system.
    The cultural component includes the values and ideologies that 
govern and direct subsistence behavior or activities. For example, the 
value of sharing is key to subsistence and the survival of Native 
societies. The young are socialized into the value of sharing with kin 
and community members. Young hunters are taught to share their first 
take whatever it may be--seal, caribou, or fish and they are rewarded 
for their behavior. Significant amounts of sharing takes place in 
ceremonies such as the whaling or seal feast or memorial rituals. 
Sharing also occurs as part of the value that acknowledges the status 
of elders. They are given special shares and parts of an animal. This 
value of sharing with elders functions in many ways like the social 
security system in which individuals receive retirement benefits. 
Single women, who act as head of households, also receive special 
shares.
    The cultural component also includes ideologies and beliefs such as 
the recognition that wildlife has spirits and that Native people have a 
kinship or special relationship with them. This relationship obligates 
Native people to adhere to certain codes of conduct and to treat 
animals in prescriptive ways to ensure success in future hunts and to 
assure that animals will return to be harvested. You may have heard 
Native Peoples say that animals ``give'' themselves to the hunter. This 
implies, that it is not skill of the hunter that determines success, 
but rather it is the animal who decides, based on the proper behavior 
of the hunter, who will be rewarded in the hunt. These cultural values 
also serve to protect the animal population base and are the basis of 
the conservation ethic that has been attributed to traditional Native 
practices. In some ways these ideologies and the accompanying practices 
can be compared to the effects of the concept of sustained yield 
harvests. For example, some groups have taboos on hunting in certain 
sites which serve to restrict hunting areas and levels.
    The social aspect of subsistence refers to the way in which Native 
people organize themselves to participate in subsistence activities. 
This socioeconomic organization is based on some form of kinship 
whether it is along a bilateral kinship system characteristic of the 
Inupiat and Yup'ik or a clan or some other group membership such as 
that adopted by the Siberian Yup'ik of St. Lawrence Island or the 
Athabascans of Interior Alaska. More often today you will hear 
references made to the extended family as the hunting unit. It may, 
however, also include formal partnerships with non-kin. The important 
dimension here is that the subsistence system operates as a group 
activity rather than that of a sole hunter pursing game.
    These social relationships and participation in subsistence 
endeavors also function as an educational system or facilitates the 
training of the young. Not only are the young socialized into the 
cultural ideologies and cosmologies of their society, they are 
instructed in the methods of hunting and preserving subsistence foods. 
They are taught about the environment and wildlife and how to read 
climatic changes, ice conditions or changing tides.
    The third element of subsistence includes the economic aspect, 
which consists of the production, distribution and exchange and 
utilization of natural resources. Production includes the procurement 
and preservation of subsistence foods.
    Distribution and exchange refer to the movement of subsistence 
goods or the sharing of subsistence foods through the social network. 
Since land was traditionally owned in common, utilization of land and 
resources require the sharing of resources. It generally begins with 
the initial distribution at hunting or fishing sites followed by a 
secondary distribution through extended kin networks and the ceremonial 
sharing. Subsistence economies also include the exchange of surplus 
resources for resources that may not be readily or locally available. 
Utilization includes the consumption of wildlife and natural resources 
for food and their use for arts and crafts or other utilitarian objects 
or equipment such as walrus or bearded seal skins, which are used in 
the manufacture of boats and other items.
    Alaska rural communities are characterized by a dual or mixed 
economy. In today's subsistence economy, cash is a vital element. It is 
necessary to purchase rifles, ammo and other tools, supplies, equipment 
such as snow mobiles. Cash is acqui red in multiple ways. The hunter or 
spouse may be a full or part time wage earner or a family member may 
earn income through the sale of arts and craft or subsistence service. 
An elderly member of the social unit may receive a transfer payment and 
contribute portions of this income to support the subsistence 
enterprise.
    The importance of the subsistence economy in Alaska cannot be 
overstated. It provides a major portion of the diet in rural Alaska and 
Native households. The subsistence studies conducted by the State of 
Alaska attest to this importance. The significance of subsistence can 
be seen as even more important with the absence or limited wage income 
opportunities in rural Alaska or its seasonal nature. The limitations 
on wage income opportunities in rural Alaska are further exacerbated by 
the highest cost of living within the United States. Without a 
subsistence economy, hunger would be the norm in Alaska Native and 
rural communities. These assertions are all verifiable by hard 
statistical data.
    Policymakers and social scientists once simply assumed that 
subsistence hunters and gathers would move in a unilateral direction 
from subsistence hunting and fishing to a cash economy. The history and 
case study of Alaska Natives refute this assumption. However, the 
persistence of the subsistence lifestyles of Alaska Natives cannot be 
attributed to the absence or constraints of wage opportunities in their 
communities. Alaska Natives have opposed legislative measures that cast 
subsistence as welfare or portrays it as a form of underemployment. 
This perspective ignores the social, cultural and ideological 
importance of subsistence and the attachment that Natives have to their 
way of life.
    Despite the changes within Native communities, Alaska Natives 
remain culturally distinct from the larger American culture and 
society. Their worldview differs in that they recognize and maintain a 
special or a spiritual relationship to wildlife. I wear the Eagle on my 
clothing and the Sun and Shark on my jewelry, not for decorative or 
aesthetic reasons, but because of the relationship I have with their 
spirits and with my ancestors who acquired these rights and 
relationships for me and other members of my clan. Another major 
cultural difference between Natives and non-Natives, that is 
particularly relevant to the subsistence issue, is that Native 
societies maintain a group orientation rather than the individualistic 
nature of the American society and American values.
    Native cultural and religious ideologies can sometimes be protected 
under the freedom of religion'policies and laws. For example, in the 
Carlos Frank case, the Athabascans won a lawsuit against the State of 
Alaska in which they had been charged for hunting a moose out of 
season. In this case, the moose was required for a traditional 
ceremony. Alaska Natives are required to feed the spirits of their 
ancestors.
    Laws embody the values of their society, and American law generally 
reflects the individualistic nature of this society rather than the 
group orientation of Native societies. American values, however, 
recognize the importance of cultural diversity. Our laws and policies 
theoretical embrace the philosophical construct of cultural diversity, 
but this does not necessarily mean they will reflect the group 
orientation value held by Alaska Natives and American Indians\1\. 
However, the Federal Government does accord Alaska Natives and American 
Indians a special political status. This unique political status, which 
differs from that of all other Americans, implicitly offers the 
opportunity to acknowledge and protect the different cultural values 
that characterize American Indian and Alaska Native societies. In the 
case of Alaska Natives, their cultural values and subsistence 
protections were possible, in part, through the Alaska National 
Interest Lands Conservation Act of 1980.
---------------------------------------------------------------------------
    \1\ The Native American Graves Protection and Repatriation Act 
recognizes the significance of a group orientation with the designation 
that items of cultural patrimony should be subject to repatriation 
claims.
---------------------------------------------------------------------------
    ANILCA is imperfect in fully protecting the cultures of Alaska 
Natives, but fortunately, as it has been interpreted and implemented, 
ANILCA has offered the only measure of protection for subsistence 
against the State of Alaska, which has refused to recognize a rural 
subsistence hunting and fishing priority. Title VIII of ANILCA requires 
that ``subsistence uses'' be given priority over the taking of fish and 
wildlife for other purposes. It defines ``subsistence uses'' as the 
``customary and traditional uses by rural Alaska residents. . . '' 
ANILCA provides a priority for rural residents of communities that have 
a customary and traditional uses of a particular resource. I am not a 
lawyer, but as an anthropologist, I note the significance of ANILCA is 
that it provides protection for ``communities'' or for groups rather 
than individual-based uses and protection based on customary and 
traditional uses.
    The State of Alaska has not yet adopted an amendment to its 
constitution to give a subsistence priority to rural Alaska. The 
prevalent argument advanced by a small, but vocal minority of Alaskans 
is to oppose a constitutional amendment because it violates ``equal'' 
access to fish and wildlife. This argument is used to support 
amendments to ANILCA rather than to bring the State into compliance 
with Federal law. My purpose is not to discuss the contradictions and 
fallacy of the equality argument as it is used in the subsistence 
debate. All laws make distinctions among classes of people and 
citizens, and in Alaska, its citizens were willing to amend the State 
Constitution to give a small number of individuals the right of access 
to most all of Alaska's fisheries through the Lilmited Entry Permit 
System (less than 14,000 permit holders take 97 percent of the fishery 
resources in Alaska). Additionally, Alaska extends to only a 1,000 or 
more individuals the right to hold guiding perrnits to large tracts of 
land.
    It is important to assess the underlying meaning of the equal 
access argument as advanced by the subsistence opponents to understand 
the potential ramifications should they be successful in amending 
ANILCA to embrace their ideology. I would suggest that they seek to 
advance an ``individualistic'' subsistence priority rather than that 
embodied in ANILCA that recognizes a rural, community-based traditional 
and customary subsistence use. This ``equality'' argument as it is used 
in the subsistence debate is ludicrous given the earlier constitutional 
amendment that provided for an inequitable allocation of natural 
resources and in view of the scope of political and fiscal inequity 
endured by Alaska Natives.
    I have attempted to describe the dynamics and significance of 
Alaska Native subsistence economies and culture. I suggest that ANILCA, 
as it is written, protects the group realities and nature of Alaska 
Native subsistence activities. The Native community and AFN have 
resisted both legal and political attempts that would alter these 
protections. I would pray that Congress will not condone the 12 further 
erosion of subsistence and cultural protection for its indigenous 
populations. I would hope that Congress will see that ANILCA is a means 
to ensure the cultural survival of Alaska Natives and to maintain the 
rich cultural diversity of this country. I would hope that Congress 
will continue to support and urge the State of Alaska to advance a 
constitutional amendment that brings it into compliance with ANILCA. It 
would be my hope that Congress will continue to support ANILCA as it is 
written, unless in its wisdom, it should choose to adopt a Native 
subsistence priority.
[GRAPHIC] [TIFF OMITTED] T9754.001

[GRAPHIC] [TIFF OMITTED] T9754.002

[GRAPHIC] [TIFF OMITTED] T9754.003

[GRAPHIC] [TIFF OMITTED] T9754.004

[GRAPHIC] [TIFF OMITTED] T9754.005

[GRAPHIC] [TIFF OMITTED] T9754.006

[GRAPHIC] [TIFF OMITTED] T9754.007

[GRAPHIC] [TIFF OMITTED] T9754.008

[GRAPHIC] [TIFF OMITTED] T9754.009

[GRAPHIC] [TIFF OMITTED] T9754.010

[GRAPHIC] [TIFF OMITTED] T9754.011

[GRAPHIC] [TIFF OMITTED] T9754.012

[GRAPHIC] [TIFF OMITTED] T9754.013

[GRAPHIC] [TIFF OMITTED] T9754.014

[GRAPHIC] [TIFF OMITTED] T9754.015

[GRAPHIC] [TIFF OMITTED] T9754.016

[GRAPHIC] [TIFF OMITTED] T9754.017

[GRAPHIC] [TIFF OMITTED] T9754.018

[GRAPHIC] [TIFF OMITTED] T9754.019

[GRAPHIC] [TIFF OMITTED] T9754.020

[GRAPHIC] [TIFF OMITTED] T9754.021

[GRAPHIC] [TIFF OMITTED] T9754.022

[GRAPHIC] [TIFF OMITTED] T9754.023

[GRAPHIC] [TIFF OMITTED] T9754.024

[GRAPHIC] [TIFF OMITTED] T9754.025

[GRAPHIC] [TIFF OMITTED] T9754.026

[GRAPHIC] [TIFF OMITTED] T9754.027

[GRAPHIC] [TIFF OMITTED] T9754.028

[GRAPHIC] [TIFF OMITTED] T9754.029

[GRAPHIC] [TIFF OMITTED] T9754.030

[GRAPHIC] [TIFF OMITTED] T9754.031

[GRAPHIC] [TIFF OMITTED] T9754.032

[GRAPHIC] [TIFF OMITTED] T9754.033

[GRAPHIC] [TIFF OMITTED] T9754.034

[GRAPHIC] [TIFF OMITTED] T9754.035

[GRAPHIC] [TIFF OMITTED] T9754.036

[GRAPHIC] [TIFF OMITTED] T9754.037

[GRAPHIC] [TIFF OMITTED] T9754.038

[GRAPHIC] [TIFF OMITTED] T9754.039

[GRAPHIC] [TIFF OMITTED] T9754.040

[GRAPHIC] [TIFF OMITTED] T9754.041

[GRAPHIC] [TIFF OMITTED] T9754.042

[GRAPHIC] [TIFF OMITTED] T9754.043

[GRAPHIC] [TIFF OMITTED] T9754.044

[GRAPHIC] [TIFF OMITTED] T9754.045

[GRAPHIC] [TIFF OMITTED] T9754.046

[GRAPHIC] [TIFF OMITTED] T9754.047

[GRAPHIC] [TIFF OMITTED] T9754.048

[GRAPHIC] [TIFF OMITTED] T9754.049

[GRAPHIC] [TIFF OMITTED] T9754.050

[GRAPHIC] [TIFF OMITTED] T9754.051

[GRAPHIC] [TIFF OMITTED] T9754.052

[GRAPHIC] [TIFF OMITTED] T9754.053

[GRAPHIC] [TIFF OMITTED] T9754.054

[GRAPHIC] [TIFF OMITTED] T9754.055

[GRAPHIC] [TIFF OMITTED] T9754.056

[GRAPHIC] [TIFF OMITTED] T9754.057

[GRAPHIC] [TIFF OMITTED] T9754.058

[GRAPHIC] [TIFF OMITTED] T9754.059

[GRAPHIC] [TIFF OMITTED] T9754.060

[GRAPHIC] [TIFF OMITTED] T9754.061

[GRAPHIC] [TIFF OMITTED] T9754.062

[GRAPHIC] [TIFF OMITTED] T9754.063

[GRAPHIC] [TIFF OMITTED] T9754.064

[GRAPHIC] [TIFF OMITTED] T9754.065

[GRAPHIC] [TIFF OMITTED] T9754.066

[GRAPHIC] [TIFF OMITTED] T9754.067

[GRAPHIC] [TIFF OMITTED] T9754.068

[GRAPHIC] [TIFF OMITTED] T9754.069

[GRAPHIC] [TIFF OMITTED] T9754.070

[GRAPHIC] [TIFF OMITTED] T9754.071

[GRAPHIC] [TIFF OMITTED] T9754.072

[GRAPHIC] [TIFF OMITTED] T9754.073

[GRAPHIC] [TIFF OMITTED] T9754.074

[GRAPHIC] [TIFF OMITTED] T9754.075

[GRAPHIC] [TIFF OMITTED] T9754.076

[GRAPHIC] [TIFF OMITTED] T9754.077

[GRAPHIC] [TIFF OMITTED] T9754.078

[GRAPHIC] [TIFF OMITTED] T9754.079

[GRAPHIC] [TIFF OMITTED] T9754.080

[GRAPHIC] [TIFF OMITTED] T9754.081

[GRAPHIC] [TIFF OMITTED] T9754.082

[GRAPHIC] [TIFF OMITTED] T9754.083

[GRAPHIC] [TIFF OMITTED] T9754.084

[GRAPHIC] [TIFF OMITTED] T9754.085

[GRAPHIC] [TIFF OMITTED] T9754.086

[GRAPHIC] [TIFF OMITTED] T9754.087

[GRAPHIC] [TIFF OMITTED] T9754.088

[GRAPHIC] [TIFF OMITTED] T9754.089

[GRAPHIC] [TIFF OMITTED] T9754.090

[GRAPHIC] [TIFF OMITTED] T9754.091

[GRAPHIC] [TIFF OMITTED] T9754.092

[GRAPHIC] [TIFF OMITTED] T9754.093

[GRAPHIC] [TIFF OMITTED] T9754.094

[GRAPHIC] [TIFF OMITTED] T9754.095

[GRAPHIC] [TIFF OMITTED] T9754.096

[GRAPHIC] [TIFF OMITTED] T9754.097

[GRAPHIC] [TIFF OMITTED] T9754.098

[GRAPHIC] [TIFF OMITTED] T9754.099

[GRAPHIC] [TIFF OMITTED] T9754.100

[GRAPHIC] [TIFF OMITTED] T9754.101

[GRAPHIC] [TIFF OMITTED] T9754.102

[GRAPHIC] [TIFF OMITTED] T9754.103

[GRAPHIC] [TIFF OMITTED] T9754.104

[GRAPHIC] [TIFF OMITTED] T9754.105

[GRAPHIC] [TIFF OMITTED] T9754.106

[GRAPHIC] [TIFF OMITTED] T9754.107

[GRAPHIC] [TIFF OMITTED] T9754.108

[GRAPHIC] [TIFF OMITTED] T9754.109

[GRAPHIC] [TIFF OMITTED] T9754.110

[GRAPHIC] [TIFF OMITTED] T9754.111

[GRAPHIC] [TIFF OMITTED] T9754.112

[GRAPHIC] [TIFF OMITTED] T9754.113

[GRAPHIC] [TIFF OMITTED] T9754.114

[GRAPHIC] [TIFF OMITTED] T9754.115

[GRAPHIC] [TIFF OMITTED] T9754.116

[GRAPHIC] [TIFF OMITTED] T9754.117

[GRAPHIC] [TIFF OMITTED] T9754.118

[GRAPHIC] [TIFF OMITTED] T9754.119

[GRAPHIC] [TIFF OMITTED] T9754.120

[GRAPHIC] [TIFF OMITTED] T9754.121

[GRAPHIC] [TIFF OMITTED] T9754.122

[GRAPHIC] [TIFF OMITTED] T9754.123

[GRAPHIC] [TIFF OMITTED] T9754.124

[GRAPHIC] [TIFF OMITTED] T9754.125

[GRAPHIC] [TIFF OMITTED] T9754.126

[GRAPHIC] [TIFF OMITTED] T9754.127

[GRAPHIC] [TIFF OMITTED] T9754.128

[GRAPHIC] [TIFF OMITTED] T9754.129

[GRAPHIC] [TIFF OMITTED] T9754.130

[GRAPHIC] [TIFF OMITTED] T9754.131

[GRAPHIC] [TIFF OMITTED] T9754.132

[GRAPHIC] [TIFF OMITTED] T9754.133

[GRAPHIC] [TIFF OMITTED] T9754.134

[GRAPHIC] [TIFF OMITTED] T9754.135

[GRAPHIC] [TIFF OMITTED] T9754.136

[GRAPHIC] [TIFF OMITTED] T9754.137

[GRAPHIC] [TIFF OMITTED] T9754.138

[GRAPHIC] [TIFF OMITTED] T9754.139

[GRAPHIC] [TIFF OMITTED] T9754.140

[GRAPHIC] [TIFF OMITTED] T9754.141

[GRAPHIC] [TIFF OMITTED] T9754.142

[GRAPHIC] [TIFF OMITTED] T9754.143

[GRAPHIC] [TIFF OMITTED] T9754.144

[GRAPHIC] [TIFF OMITTED] T9754.145

[GRAPHIC] [TIFF OMITTED] T9754.146

[GRAPHIC] [TIFF OMITTED] T9754.147

[GRAPHIC] [TIFF OMITTED] T9754.148

[GRAPHIC] [TIFF OMITTED] T9754.149

[GRAPHIC] [TIFF OMITTED] T9754.150

[GRAPHIC] [TIFF OMITTED] T9754.151

[GRAPHIC] [TIFF OMITTED] T9754.152

[GRAPHIC] [TIFF OMITTED] T9754.153

[GRAPHIC] [TIFF OMITTED] T9754.154

[GRAPHIC] [TIFF OMITTED] T9754.155

[GRAPHIC] [TIFF OMITTED] T9754.156

[GRAPHIC] [TIFF OMITTED] T9754.157

[GRAPHIC] [TIFF OMITTED] T9754.158

[GRAPHIC] [TIFF OMITTED] T9754.159

[GRAPHIC] [TIFF OMITTED] T9754.160

[GRAPHIC] [TIFF OMITTED] T9754.161

[GRAPHIC] [TIFF OMITTED] T9754.162

[GRAPHIC] [TIFF OMITTED] T9754.163

[GRAPHIC] [TIFF OMITTED] T9754.164

[GRAPHIC] [TIFF OMITTED] T9754.165

[GRAPHIC] [TIFF OMITTED] T9754.166

[GRAPHIC] [TIFF OMITTED] T9754.167

[GRAPHIC] [TIFF OMITTED] T9754.168

[GRAPHIC] [TIFF OMITTED] T9754.169

[GRAPHIC] [TIFF OMITTED] T9754.170

[GRAPHIC] [TIFF OMITTED] T9754.171

[GRAPHIC] [TIFF OMITTED] T9754.172

                               <greek-d>

</pre></body></html>
